<html>
<title> - THE COST OF NON-COMPLETION: IMPROVING STUDENT OUTCOMES IN HIGHER EDUCATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      THE COST OF NON-COMPLETION:
                       IMPROVING STUDENT OUTCOMES
                          IN HIGHER EDUCATION

=======================================================================

                                 HEARING

                               BEFORE THE

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE INVESTMENT


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 9, 2019

                               __________

                           Serial No. 116-22

                               __________

      Printed for the use of the Committee on Education and Labor

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                                 __________
	                      
	                
	            U.S. GOVERNMENT PUBLISHING OFFICE                    
36-597 PDF	            WASHINGTON : 2019                     
	                
-----------------------------------------------------------------------------------   
             
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE INVESTMENT

                 SUSAN A. DAVIS, California, Chairwoman


Joe Courtney, Connecticut            Lloyd Smucker, Pennsylvania
Mark Takano, California                Ranking Member
Pramila Jayapal, Washington          Brett Guthrie, Kentucky
Josh Harder, California              Glenn Grothman, Wisconsin
Andy Levin, Michigan                 Elise Stefanik, New York
Ilhan Omar, Minnesota                Jim Banks, Indiana
David Trone, Maryland                Mark Walker, North Carolina
Susie Lee, Nevada                    James Comer, Kentucky
Lori Trahan, Massachusetts           Ben Cline, Virginia
Joaquin Castro, Texas                Russ Fulcher, Idaho
Raul M. Grijalva, Arizona            Steve C. Watkins, Jr., Kansas
Gregorio Kilili Camacho Sablan,      Dan Meuser, Pennsylvania
  Northern Mariana Islands           William R. Timmons, IV, South 
Suzanne Bonamici, Oregon                 Carolina
Alma S. Adams, North Carolina
Donald Norcross, New Jersey
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 9, 2019......................................     1

Statement of Members:
    Davis, Hon. Susan A., Chairwoman, Subcommittee on Higher 
      Education and Workforce Investment.........................     1
        Prepared statement of....................................     3
    Smucker, Hon. Lloyd, Ranking Member, Subcommittee on Higher 
      Education and Workforce Investment.........................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Dynarski, Ms. Susan, Professor, University of Michigan.......     8
        Prepared statement of....................................    10
    Rudd, Dr. M. David, President and Distinguished University 
      Professor of Psychology, University of Memphis.............    14
        Prepared statement of....................................    16
    Eddinger, Dr. Pam Y., President, Bunker Hill Community 
      College....................................................    18
        Prepared statement of....................................    20
    Ethelbah, Mr. Kyle, Director of Federal Trio Programs, 
      University of Utah.........................................    23
        Prepared statement of....................................    25

Additional Submissions:
    Chairwoman Davis:
        Letter dated May 6, 2019 from California Community 
          Colleges...............................................    65
        Letter dated May 9, 2019 from Council of Graduate Schools    68
    Foxx, Hon. Virginia, a Representative in Congress from the 
      State of North Carolina:
        College Scorecard Data on HBCU's For-Profits and 
          Community Colleges.....................................    70
    Jayapal, Hon. Pramila, a Representative in Congress from the 
      State of Washington:
        Letter dated May 30, 2019 from The Education Trust.......    71
    Trone, Hon. David J., a Representative in Congress from the 
      State of Maryland:
        Link: Investing in Futures: Economic and Fiscal Benefits 
          of Postsecondary Education in Prison...................    73
    Questions submitted for the record by:
        Bonamici, Hon. Suzanne, a Representative in Congress from 
          the State of Oregon 



        Omar, Hon. Ilhan, a Representative in Congress from the 
          State of Minnesota.....................................    77
        Sablan, Hon. Gregorio Kilili Camacho, a Representative in 
          Congress from the Northern Mariana Islands 




    Responses to questions submitted for the record by:
        Dr. Eddinger.............................................    81
        Mr. Ethelbah.............................................    83
        Dr. Rudd.................................................    88

 
                      THE COST OF NON-COMPLETION:
                       IMPROVING STUDENT OUTCOMES
                          IN HIGHER EDUCATION
                          
                             ----------                              


                         Thursday, May 9, 2019

                       House of Representatives,

                   Committee on Education and Labor,

       Subcommittee on Higher Education and Workforce Investment,

                            Washington, DC.

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:17 a.m., in 
room 2175, Rayburn House Office Building. Hon. Susan A. Davis 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Davis, Takano, Jayapal, Harder, 
Levin, Trone, Lee, Castro, Sablan, Bonamici, Adams, Norcross, 
Smucker, Guthrie, Grothman, Stefanik, Banks, Walker, Comer, 
Cline, Watkins, Meuser, and Timmons.
    Also present: Representatives Scott, Foxx, Cohen, and Wild.
    Staff present: Tylease Alli, Chief Clerk; Katie Berger, 
Professional Staff; Nekea Brown, Deputy Clerk; Christian 
Haines, General Counsel Education; Stephanie Lalle, Deputy 
Communications Director; Andre Lindsay, Staff Assistant; 
Richard Miller, Director of Labor Policy; Max Moore, Office 
Aid; Jacque Mosely, Director of Education Policy; Katherine 
Valle, Senior Education Policy Advisor; Banyon Vassar, Deputy 
Director of Information Technology; Claire Viall, Professional 
Staff; Rachel West, Senior Economic Policy Advisor; Courtney 
Butcher, Minority Director of Coalitions; Bridget Handy, 
Minority Communications Assistant; Amy Raaf Jones, Minority 
Director of Education and Human Resources Policy; Hannah 
Matesic, Minority Director of Operations; Kelley McNabb, 
Minority Communications Director; Brandon Renz, Minority Staff 
Director; Alex Ricci, Minority Professional Staff; Mandy 
Schaumburg, Minority Chief Counsel and Deputy Director of 
Education Policy; and Heather Wadyka, Minority Operations 
Assistant.
    Chairwoman DAVIS. So welcome once again to the Subcommittee 
of Higher Education and Workforce Investment.
    I note that a quorum is present and I also want to ask 
unanimous consent that Ms. Wild of Pennsylvania be allowed to 
sit in with us today with the understanding that she will be 
able to ask questions after all members of the subcommittee 
have asked their questions. And without objection, so ordered.
    The committee is meeting today in a legislative hearing to 
hear testimony on the cost of non-completion, improving student 
outcomes in higher education.
    Pursuant to committee rule 7c, opening statements are 
limited to the chair and the ranking member and this allows us 
to hear from our witnesses sooner and provides all members with 
adequate time to ask questions. I recognize myself now for the 
purpose of making an opening statement.
    Today, we will examine the importance of improving student 
outcomes in higher education. As this committee continues its 
work to expand college access, we must also ensure that today's 
students have the support they need to complete college and 
enjoy the life changing benefits of a college degree. This is 
really a matter of National importance.
    The students enrolling in college today, students who are 
increasingly diverse, who have fewer financial resources, who 
are juggling work and family obligations, these students, our 
students, are the future of our economy. Research unequivocally 
shows that--compared to high school graduates, college 
graduates are more financially stable, enjoy healthier lives, 
and are better able to pass on their success to future 
generations.
    The benefits of obtaining a college degree go far beyond 
individual gains. When more students earn degrees, we all 
benefit. And I know you all agree with that.
    Increased degree attainment contributes to the economic 
health of our towns, our cities, and States and it reduces 
reliance on public safety net programs. It helps make our 
communities healthier and reduces rates of incarceration.
    Simply put, investments in quality higher education will 
pay for themselves. In fact, researchers have found that for 
every dollar a State invests in higher education, it receives 
up to $4.50 in return. The lasting, undeniable benefits of a 
college degree illustrate our responsibility as a Nation to 
ensure that students have an opportunity to enroll in and 
graduate from college.
    However, the data shows us that there is a lot of work to 
do. Roughly only 6 out of every 10 students graduate with a 
degree and the odds of graduating are worse if you are a 
student of color or a low income student. Today, white students 
complete college degrees at one and a half times the rate of 
black students. Similarly, graduation rate gaps disadvantage 
low income families, with Pell Grant recipients 18 percentage 
points less likely to graduate than non-Pell recipients.
    These gaps do not reflect a lack of effort or desire on the 
part of students. They reflect the numerous barriers 
underserved students face throughout their educational careers. 
These challenges begin in K12 education where systemic 
inequities leave too many students unprepared for college 
coursework and they are compounded by the challenges facing 
America's increasingly nontraditional student body.
    So today, more than one in three students enrolls part-
time. One in every two students holds down a job while in 
college. A quarter of students care for children of their own. 
And more than 40 percent of students live in poverty.
    To reach graduation, these students need not only academic 
supports, but also wrap-around services like counseling, like 
child care support, and assistance with food and housing so 
they can focus on studies without sacrificing necessities. 
Congress has a responsibility to ensure that today's college 
students have the support they need to make it to graduation 
day. Otherwise, we will continue to leave far too many students 
without a degree, struggling with student loans that they can't 
repay.
    And in many cases, this burden and the emotional toll of 
not having completed college can set students further back than 
when they enrolled.
    We cannot sit idly while every day, students across the 
country are forced to choose between their degree, their 
income, their children, and their health. Rather than splitting 
hairs about a 1 or a 2 percent increase in funding levels, we 
should take bold steps to invest in students, feeling secure in 
the knowledge that our investment will pay off as we see more 
Americans earning college degrees, filling high-demand jobs, 
and giving back to their communities.
    Education, we know, has a transformative power and an 
unparalleled impact on intergenerational mobility, especially 
for those who rely on Federal financial aid and federally 
funded student support programs.
    We must invest in higher education so that all students who 
begin college, no matter their race, their income, their 
background, or circumstance, can complete a degree that leads 
to a rewarding career.
    I want to thank the witnesses for being with us today for 
this important discussion. And I now yield to the Ranking 
Member, Mr. Smucker, for his opening statement.
    [The statement of Chairwoman Davis follows:]

Prepared Statement of Hon. Susan A. Davis, Chairwoman, Subcommittee on 
               Higher Education and Workforce Investment

    Today, we will examine the importance of improving student outcomes 
in higher education.
    As this Committee continues its work to expand college access, we 
must also ensure that today's students have the support they need to 
complete college and enjoy the life changing benefits of a college 
degree.
    This is really a matter of national importance. The students 
enrolling in college today--students who are increasingly diverse, who 
have fewer financial resources, who are juggling work and family 
obligations--these students are the future of our economy.
    Research unequivocally shows that--compared to high school 
graduates--college graduates are more financially stable, enjoy 
healthier lives, and are better able to pass on their success to future 
generations.
    The benefits of attaining a college degree go far beyond individual 
gains. When more students earn degrees, we all benefit. And I know you 
all agree with that.
    Increased degree attainment contributes to the economic health of 
our towns, cities, and States. It reduces reliance on public safety net 
programs. It helps make our communities healthier and reduces rates of 
incarceration.
    Simply put, investments in quality higher education will pay for 
themselves. In fact, researchers have found that for every $1 a State 
invests in higher education, it receives up to $4.50 in return.
    The lasting, undeniable benefits of a college degree illustrate our 
responsibility, as a Nation, to ensure that students have an 
opportunity to enroll in and graduate from college. However, the data 
show us that there is a lot of work to be done.
    Roughly only six out of every 10 students graduate with a degree. 
And the odds of graduating are worse if you are a student of color or a 
low-income student.
    Today, white students complete college degrees at one-and-a-half 
times the rate of Black students. Similarly, graduation rate gaps 
disadvantage low-income families, with Pell Grant recipients 18 
percentage points less likely to graduate than non-Pell recipients.
    These gaps do not reflect a lack of effort or desire on the part of 
students. They reflect the numerous barriers underserved students face 
throughout their educational careers.
    These challenges begin in K-12 education where systemic inequities 
leave too many students underprepared for college coursework, and they 
are compounded by the challenges facing America's increasingly ``non-
traditional'' student body.
    Today, more than one-in-three students enrolls part-time. One in 
every two students holds down a job while in college. A quarter of 
students care for children of their own. And more than 40 percent of 
students live in poverty.
    To reach graduation, these students need not only academic 
supports, but also wrap-around services--like counseling, child care 
support, and assistance with food and housing--so they can focus on 
studies without sacrificing necessities.
    Congress has a responsibility to ensure that today's college 
students have the support they need to make it to graduation day. 
Otherwise, we will continue to leave far too many students without a 
degree, struggling with student loans they can't repay. In many cases, 
this burden and the emotional toll of not having completed college can 
set students further back than when they enrolled.
    We cannot sit idly while, every day, students across the country 
are forced to choose between their degree, their income, their 
children, and their health.
    Rather than splitting hairs about a one or 2 percent increase in 
funding levels, we should take bold steps to invest in students, 
feeling secure in the knowledge that our investment will pay off as we 
see more Americans earning college degrees, filling high-demand jobs, 
and giving back to their communities.
    Education, we know, has a transformative power and an unparalleled 
impact on intergenerational mobility, especially for those who rely on 
Federal financial aid and federally funded student support programs. We 
must invest in higher education, so that all students who begin 
college--no matter their race, income, background, or circumstance--can 
complete a degree that leads to a rewarding career.
    I want to thank the witnesses for being with us today for this 
important discussion.
    I now yield to the Ranking Member, Mr. Smucker, for his opening 
statement.
                                 ______
                                 
    Mr. SMUCKER. Thank you, Madame Chair, for yielding. It is 
graduation season and we--there is a lot to celebrate as we 
talk about higher education as well. Across the country, 
millions of students are celebrating themselves after years of 
hard work that they've dedicated to earning their degree so 
finally they have no more of those late-nighters, maybe even 
all-nighters in the library, studying those flash cards of the 
periodic table or experiencing that dorm room food. These 
students are on to bigger and better things.
    This is a reality for some including I'm happy to say my 
oldest daughter, Paige, who will be walking next week in 
celebration of her graduation. Their achievement is cause for 
celebration.
    But going unseen are the millions of men and women who 
won't be graduating this month because they were unable to 
complete their degree. Part of the legacy of the Higher 
Education Act was making college accessible to more Americans. 
This objective on the whole was very successful.
    Between 1995 and 2005 university enrollment increased by 23 
percent followed by another 14 percent increase over the 
following decade. By 2015, approximately 20 million students 
were enrolled in post-secondary education.
    Enrolling in college, it is a personal and even emotional 
decision, you know, and for many students they may be the first 
in their family to pursue a post-secondary degree. Some may 
never have thought that college would be an option for them. By 
enrolling, they are taking a step in faith toward a better life 
and toward a better future.
    Just 58 percent of enrollees graduate in 6 years. That is 
not 4 years, that is 6 years. Only 58 percent in 6 years. And 
myself being a non-traditional student, if you factor in non-
traditional students, those numbers can look even worse. Those 
numbers aren't, they are not okay.
    We cannot afford to be complacent about the fact that 42 
percent of American students are unable to complete their 
education within 6 years. Because this means that many of these 
students are exiting programs with significant student loan 
debt to their name and without the value of that degree hurting 
their ability to provide for themselves and for their families.
    A recent study by the Wall Street Journal found that when 
factoring in outstanding student loan debt, students who drop 
out before attending a degree have worse financial outcomes 
than those who never pursue post-secondary education in the 
first place.
    There has always been a degree of risk involved in pursuing 
a college education, but student loan debt has upped the stakes 
to devastating levels for far too many students. Easy access to 
tax payer funded student loans has driven up post-secondary 
tuition and fees so that today aggregate student loan debt 
stands at a staggering 1.5 trillion and the number keeps 
growing.
    The absence of downward pressure on rising costs paired 
with the fact that post-secondary institutions do not share in 
the risk of student's non completion has woefully harmed 
student's chances at future success. Whether a student sticks 
with the program or not, institutions continue to receive tax 
dollars uninterrupted. That needs to change. Institutions 
should and must have a greater stake in their student's success 
and a reason to help spur them on to the finish line.
    Post-secondary education is a vital pathway to good paying 
jobs and career success and we must work to ensure that this 
pathway remains available and viable to students of all ages 
and socioeconomic backgrounds. But getting these students to 
the starting line is not enough. We must encourage them to 
complete a program and earn that credential or degree.
    Across the country we have more than 7 million unfilled 
jobs and employers desperately need workers with the right 
skills and credentials to participate in the work force and to 
drive our economy forward. Now more than ever we need solutions 
that align post-secondary education with in demand jobs and 
give students in school a reason to finish their program. Thank 
you, I yield back.
    [The statement of Mr. Smucker follows:]

Prepared Statement of Hon. Lloyd Smucker, Ranking Member, Subcommittee 
              on Higher Education and Workforce Investment

    Thank you for yielding.
    It's graduation season. Across the country, millions of students 
are celebrating the years of hard work they dedicated to earning their 
degree. Finally, no more late nights in the library, flash cards of the 
periodic table, or dorm room ramen. These students are on to bigger and 
better things. This is the reality for some, including my oldest 
daughter Paige, who graduates next week. Their achievement is cause for 
celebration. But going unseen are the millions of men and women who 
won't be graduating this month because they were unable to complete 
their degree.
    Part of the legacy of the Higher Education Act was making college 
accessible to more Americans. This objective was, on the whole, very 
successful. Between 1995 and 2005, university enrollment increased by 
23 percent, followed by another 14 percent increase over the following 
decade. By 2015, approximately 20 million students were enrolled in 
postsecondary education. Enrolling in college is a deeply personal and 
emotional decision. For many students, they may be the first in their 
family to pursue a postsecondary degree. Some may never have thought 
college would be an option for them. By enrolling, they are taking a 
step in faith toward a better life and a better future.
    Just 58 percent of enrollees graduate in 6 years. Not 4 years 6 
years. This percentage measures full-time students, and as someone who 
was a non-traditional student, I know the outcomes can look far worse. 
These numbers are not okay. We cannot afford to be complacent about 
that fact that 42 percent of American students are unable to complete 
their education within 6 years. Because this means that many of these 
students are exiting programs with significant student loan debt to 
their name, and without the value of the degree--hurting their ability 
to provide for themselves or their families.
    A recent study by the Wall Street Journal found that when factoring 
in outstanding student loan debt, students who drop out before 
attaining a degree have worse financial outcomes than those who never 
pursue postsecondary education in the first place. There has always 
been a degree of risk involved in pursuing a college education, but 
student loan debt has upped the stakes to devastating levels for too 
many students.
    Easy access to taxpayer-funded student loans has driven up 
postsecondary tuition and fees so that today, aggregate student loan 
debt stands at a staggering $1.5 trillion, and the number keeps 
growing. The absence of downward pressure on rising costs paired with 
the fact that postsecondary institutions do not share in the risk of 
students' noncompletion has woefully harmed students' chances at future 
success. Whether a student sticks with the program or not, institutions 
continue to receive tax dollars uninterrupted. That needs to change. 
Institutions must have a greater stake in their students' success and a 
reason to spur them on to the finish line. Postsecondary education is a 
vital pathway to good-paying jobs and career success, and we must work 
to ensure this pathway remains available to students of all ages and 
socioeconomic backgrounds. But getting these students to the starting 
line is not enough; we must encourage them to complete a program and 
earn a credential.
    Across the country, we have more than 7 million unfilled jobs, and 
employers desperately need workers with the right skills and 
credentials to participate in the work force and drive our economy 
forward. Now more than ever, we need solutions that align postsecondary 
education with in-demand jobs and give students in school a reason to 
finish their program.
    I yield back.
                                 ______
                                 
    Chairwoman DAVIS. Thank you. Without objection, all other 
members who wish to insert written statements into the record 
may do so by submitting them to the committee clerk 
electronically in Microsoft Word format by 5 on May 22.
    And it's now my pleasure to introduce our witnesses. Dr. 
Susan Dynarski is a Professor of Public Policy Education and 
Economics at the University of Michigan and a faculty research 
associate at the National Bureau of Economic Research. Dr. 
Dynarski's research focuses on understanding and reducing 
inequality in education.
    Dr. Dynarski earned an AB in social studies from Harvard, a 
Masters of public policy from Harvard and a PhD in economics 
from MIT. Thank you for being with us.
    I am pleased to recognize my colleague, Representative 
Steve Cohen to briefly introduce Dr. Rudd, his constituent who 
is appearing before us as a witness today.
    Mr. COHEN. Thank you, Chair Davis and Chair Scott for 
giving me the opportunity to introduce a distinguished resident 
of the city of Memphis.
    Dr. David Rudd is celebrating his 5th year as President of 
the University of Memphis this month. He came to the University 
of Memphis after attending and graduating under graduate of 
Princeton University and then he went to the University of 
Texas Austin where he showed great promise and made the most 
important decision of his life when he met and married Loretta 
Rudd who has accompanied him to the University of Memphis and 
she is a faculty member as well.
    Dr. Rudd was at the University of Utah before he came to 
Memphis and was a professor there in psychology. He has got a 
distinguished career as a psychologist. He has done much with 
veterans and trying to see that they get opportunities to get 
education. He has been a valuable resource to the--to our city 
and he was wise to send his son Nicholas to my alma mater, 
Vanderbilt, and he is just a phenomenal Memphian and I'm sure 
you will learn much from his testimony. Welcome and thank you.
    Chairwoman DAVIS. Thank you, Mr. Cohen. Dr. Pam Eddinger 
has been president of Bunker Hill Community College, the 
largest of 15 community colleges in Massachusetts since 2013. 
Dr. Eddinger has served the community college movement for 
three decades in Massachusetts and in California including 10 
years as a college president.
    Dr. Eddinger earned a bachelor's degree in English from 
Bernard College and her masters in doctorate in Japanese 
literature from Columbia University. Welcome.
    Dr. Kyle Ethelbah is director of Federal TRIO programs at 
the University of Utah where he oversees student support 
services and Upward Bound programs. Dr. Ethelbah has 22 years 
of professional higher education experience including 
admissions, financial aid, academic advising and roles, and 
Federal TRIO programs.
    Mr. Ethelbah received a bachelor's degree in cultural and 
linguistic anthropology from the University of Arizona and a 
master's degree in public health from the University of Nevada, 
Las Vegas. Welcome as well.
    We appreciate all of you for being here and look forward to 
your testimony. I wanted to remind the witnesses that we have 
read your written statements and they will appear in full in 
the hearing record.
    Pursuant to committee rule 7d and committee practice, each 
of you is asked to limit your oral presentation to a 5-minute 
summary of your written statement. I wanted to also remind you 
that pursuant to Title 18 of the U.S. Code, section 1001, it is 
illegal to knowingly and willfully falsify any statement, 
representation, writing, document or material fact presented to 
Congress or otherwise conceal or cover up a material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on and the members can hear you. As you being to speak, 
the light in front of you will turn green and after 4 minutes, 
the light will turn yellow to signal that you have 1 remaining 
minute.
    When the light turns red, your 5 minutes have expired and 
we ask that you please wrap up. We will let the entire panel 
make their presentations before we move to member questions and 
when answering a question please remember to once again turn 
your microphone on.
    I will first recognize now Dr. Dynarski for your remarks 
and then we will go all the way through. Thank you.

 STATEMENT OF SUSAN DYNARSKI, PROFESSOR, UNIVERSITY OF MICHIGAN


    Ms. DYNARSKI. Chairwoman Davis, Ranking Member Smucker and 
members of the subcommittee, thank you for the opportunity to 
testify today. A college degree is one of the best investments 
a person can make. My dad was a high school dropout. I'm a 
college professor. I have seen firsthand the power of education 
to change people's lives.
    A bachelor's degree pays for itself several times over in 
the form of higher income, lower unemployment, and increased 
economic security. College graduates with a BA earn 80 percent 
more than those with just a high school degree. Within 10 years 
of college graduation, the typical BA recipient will have 
recouped the cost of attending college. Those who attend 
college without graduating see much smaller benefits. 
Especially for men, the earnings of non-completers more closely 
resemble those of high school graduates than of college 
graduates.
    Rising student debt has shifted financial risk onto 
students and makes graduation even more important. Those who 
earn a BA rarely default on their loans. Most defaults are by 
non-completers.
    Now while college completion has--college attendance has 
risen steadily, degree attainment has stagnated. That's because 
half of college students drop out without earning a degree. As 
a result, only about 30 percent of adults have a BA. For those 
from the lowest income families its 10 percent. For black 
adults it's 22 percent and for Hispanic adults it's 15 percent.
    Now most people start college intending to earn a degree. 
Most do not succeed. The Department of Education projects a 
sharp increase in the number of college students who are black 
or Hispanic while the number of white students will barely 
budge. Unless we increase completion rates for disadvantaged, 
black, and Latino students, we are looking at a sharp decrease 
in the education of our population.
    Now completion rates vary dramatically by sector. The odds 
of graduating if you start out at a nonprofit 4 year college 
are 76 percent. At a public 4 year college, 65 percent. At a 
community college, 37 percent and at a for profit school, 35 
percent.
    At hundreds of schools only 1 out of 5 students will 
graduate. At 300 colleges, students are more likely to default 
on their student loans than they are to get a degree. The very 
low completion rates at for profits are especially troubling. 
Students attending for profits take on much higher debt and 
they're far more likely to default on their loans. That's 
because evidence shows that students don't get an earnings 
boost from attending a for profit college.
    Now why do students drop out? Students with weaker academic 
preparation are more likely to drop out unsurprisingly but even 
well prepared students drop out of college. For example, a high 
performing student from a low income family is no more likely 
to graduate college than a mediocre student from a high income 
family.
    Part of this is financial insecurity. Students need to know 
that their college costs are covered in order to focus on their 
studies. Our complicated, bureaucratic financial aid system 
often fails them.
    Even more importantly, school quality matters. Better 
schools produce better outcomes. This is obvious when we are 
talking about K12 education which is free for students. Since 
it is free we focus our policy discussions on how to make that 
free education a good education.
    For college we are rightly concerned about affordability 
and we talk about it quite a bit but we can't stop there. An 
affordable school is worthless or even harmful if it doesn't 
provide a quality education.
    Evidence shows that resources matter for college completion 
especially for disadvantaged students yet those with the 
greatest needs attend the schools with the fewest resources.
    In elementary and secondary education, we steer additional 
money and support toward students with the greatest need. 
Federal money sends--Federal funding sends money to schools who 
teach English language learners, those with learning 
disabilities, and the economically disadvantaged.
    In college, the equation is flipped. Schools that enroll 
students with the greatest needs get the fewest resources. At 
private universities, per pupil instructional spending is about 
$45,000 a year. At community colleges, 10,000.
    Now we have got strong evidence about what works in 
increasing completion and unsurprisingly it costs something. At 
the city university of New York the ASAP program more than 
doubled the graduation rate of community college students. 
Similar program in Ohio, similar success.
    These programs now serve 10's of thousands of students. 
They cost a few thousand dollars per student per year which 
still leaves community colleges spending far less than 4 year 
colleges.
    Stable funding is critical for schools if they are to 
succeed but when States face a budget crunch it's typically the 
public colleges that get cut first. Spending on public colleges 
took a very hard hit during the recession. The result was 
decreased resources, higher tuition prices and high dropout 
rates.
    Facing underfunded and overflowing public colleges, 
student's turned in large numbers to for profit colleges. They 
left those colleges with huge student debts and worthless 
credentials. This pattern is likely to repeat itself with the 
next recession unless we make a change.
    We will see another spike in for profit enrollment, another 
spike in student loan default unless we consistently give our 
public colleges the resources they need to educate our 
students.
    [The statement of Ms. Dynarski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman DAVIS. Thank you very much. Dr. Rudd.

    STATEMENT OF M. DAVID RUDD, PRESIDENT AND DISTINGUISHED 
 UNIVERSITY PROFESSOR OF PSYCHOLOGY, THE UNIVERSITY OF MEMPHIS


    Mr. RUDD. Chairwoman Davis, Ranking Member Smucker, members 
of the subcommittee, I want to thank you for the opportunity to 
talk with you today.
    The challenges facing today's college students are well 
known with concerns about costs, student loan debt, and return 
on investment representing a recurring theme nationally.
    The University of Memphis has an important role to play in 
addressing these issues and ensuring our students can access an 
affordable, high quality education that prepares them for 
success both in a career and in life.
    Approximately half of our students are fully Pell eligible 
and roughly 44 percent are first generation students. In recent 
years we've worked diligently to limit or eliminate tuition 
increases while also implementing a range of innovative 
programs that remove barriers and increase retention.
    Today I'll share a few examples of those initiatives that 
have been most successful for our university and most 
importantly for our students.
    The majority of our students work significant hours outside 
of the classroom to pay for college costs and other expenses 
and these work hours take students away from their studies and 
affect time to graduation.
    In 2016, the University of Memphis Foundation launched a 
private company called the UMRF Ventures. The single goal of 
this company was to create jobs that paid well enough so 
students could work fewer hours while also gaining meaningful 
work experience and allowing them to focus more specifically on 
school.
    Ventures now operates three high performing call centers, a 
data analytics center, and an IT command center for some of the 
largest employers in Memphis including Fed Ex, St. Jude, 
International Paper, and others. Today it employs over 300 
students with wages that range from $15 to $26 per hour. And we 
expect to hire more students in the very near future. Early 
data indicate the students who work for Ventures are uniformly 
staying on track for graduation primarily as a result of the 
ability to cap work hours and focus more intently on academic 
demands.
    I would also like to share with you our Academic Coaching 
for Excellence program which provides psychosocial support and 
related time management and organization skills for students 
placed on academic warning. In the latest 2018 cohort, the 
retention rate for our ACE participants was 87.3 percent in 
sharp contrast to non-participants at 43.5 percent and almost 
equal to the general retention rate for the campus as a whole 
at 93 percent.
    Recognizing our institution as a significant population of 
male African American students who have historically struggled 
with poor retention rates, we launched the Memphis Advantage 
Scholarship Program to provide targeted scholarship dollars in 
mentor support for those students. As a result, 6 year 
graduation rates have more than doubled from 28.5 percent to 
58.1 percent for those receiving support. And we have 
significant effort underway to expand the Memphis Advantage 
Program for the university as a whole.
    Additionally, the University of Memphis recently opened an 
office of first generation students to provide consolidated and 
coordinated delivery of a range of mentorship for our students 
including leadership and support programs broadly for first 
generation students.
    We have also established a finish line program that helps 
students who stopped out of the U of M with 90 or more hours 
complete their degree. The average cost for those students to 
complete is less than $2,000 and the average number of hours 
required to complete is actually less than 12. It is remarkable 
that students that may have been out for a decade are able to 
complete that quickly.
    Our sustained focus on supporting our most vulnerable 
students demonstrates several things. First, addressing 
financial challenges containing costs are critical for student 
success. Second, the psychosocial support has remarkable impact 
on student's ability to excel academically. Third, the simple 
things make a big difference for retention and degree 
completion.
    We have discovered that it's not just about academic 
capacity for our students, it's about support and that support 
takes form both in financial and psychosocial ways. Finally, 
our most vulnerable students can achieve at high levels with 
limited but focused institutional support.
    Once again, I want to thank you for the opportunity to 
testify today. I hope that the initiatives I have described 
will inform as you explore Federal policies that could further 
support student success and improve our nations graduation 
rates for all of our students regardless of race, background, 
or life circumstance. I look forward to answering any questions 
that you may have.
    [The statement of Mr. Rudd follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman DAVIS. Thank you very much. Dr. Eddinger.

STATEMENT OF PAM Y. EDDINGER, PRESIDENT, BUNKER HILL COMMUNITY 
                            COLLEGE


    Ms. EDDINGER. Thank you, Chair Davis, Ranking Member 
Smucker, members of the subcommittee, thank you for the 
opportunity to brief you on the pressing issues of the great 
completion, its implication for our future work force and 
solutions we are implementing at Bunker Hill Community College. 
Bunker Hill is a mid-size urban institution in Boston, serving 
18,000 students a year from the metro area and a number of 
gateway cities. Community colleges educate over 13 million 
students, one out of every two undergraduates in the United 
States.
    Middle and low income students are most likely to attend 
community colleges than any other type of higher education 
institution.
    We are the source of the future work force, performing what 
we called new-collar jobs, jobs that are middle-skills 
requiring some college and pays well. Jobs in IT, in STEM, 
health care, manufacturing, and the creative economy, driven by 
the expansion of gaming and artificial intelligence.
    In Massachusetts alone, 65,000 middle-skills jobs are 
needed or will be created by the beginning of the next decade. 
80 percent of the jobs created now will require some college. 
But our enrollments are not trending to meet this need. Our 
high school population will drop precipitously in 5 years, and 
fewer college grads will reach the workplace. Our hope of 
filling these new-collar jobs lies in educating our adult 
learners, who are becoming the majority at our community 
colleges.
    Degree completion in 2 or even 3 years has always been a 
challenge for community college students, and now even more so 
with adult students.
    The first challenge is financial and social. College is not 
at the center of adult learners lives. Three out of four work, 
three out of five are parents, 77 percent of them earn at the 
lowest two quintile of income. They are often one small 
financial disaster away from dropping out. They are financially 
fragile, but they know that college leads to economic and 
social mobility.
    A majority of the students who drop out that we have 
studied were in good standing. 60 percent had a 2.5 GPA, that's 
a B plus and 40 percent had finished over a year's worth of 
classes. The pressures of basic needs, housing, food, 
transportation and childcare are what derails these students, 
not academic performance.
    Over 50 percent of students experienced food insecurity on 
our campus. 14 percent were homeless. And this is ubiquitous 
across the community colleges in the United States.
    So Bunker Hill's immediate answer was to open a food 
pantry, to raise funds for public transportation passes, to 
advocate for alignment of social benefits like SNAP with needs 
of the adult college student. Additionally, Open Educational 
Resource available online to replace traditional textbooks 
saved approximately $1.5 million for our students since the 
beginning of the program in 2016.
    The second challenge is academic preparation. 90 percent of 
entering students need developmental math. 45 percent are below 
college level in English. We used to call Developmental 
Education or Dev. Ed. the revolving front door. The longer you 
stay in Dev. Ed., the more likely you were to drop out. So we 
compressed and accelerated it.
    You can take math and English courses two levels at a time 
and with tutoring services available. Its counter intuitive but 
students did better, and now they can do all of their Dev. Ed. 
work in 1 year. We are working on the same sequences for 
English as a Second Language.
    The third challenge is to map the shortest pathway to 
employment. This requires industry aligned curriculum, 
apprenticeships, and internships from our business partners. We 
need certificates that stacks toward the degree. We need fully 
paid, experiential learning opportunities with transportation 
stipends. The best retention strategy is a promised job at the 
end of the line.
    The final challenge is for institutions like ours and 
others to shift from the traditional college paradigm to retain 
and graduate a free adult learner. We must craft policies and 
procedures, schedules, services, and mindsets that respects the 
complex lives of our students and then cater to it.
    Bunker Hill used to offer midnight classes to accommodate 
workers on the second shift. Now we offer hybrid and online 
classes for the same reasons. Meet these challenges and they 
will complete. Thank you.
    [The statement of Ms. Eddinger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman DAVIS. Thank you very much. Mr. Ethelbah.

   STATEMENT OF KYLE ETHELBAH, MPH, DIRECTOR OF FEDERAL TRIO 
                PROGRAMS, THE UNIVERSITY OF UTAH


    Mr. ETHELBAH. Chairwoman Davis, Ranking Member Smucker, 
members of the subcommittee, thank you for the opportunity to 
testify today.
    My name is Kyle Ethelbah and I serve as Director of the 
TRIO Student Support Services and TRIO Upward Bound Programs at 
the University of Utah. In total I have 22 years of 
professional experience in higher education, mostly directing 
TRIO programs. I'm also the incoming board chair of the Counsel 
for Opportunity and Education which promotes college access and 
success for low income first generation students and students 
with disabilities.
    Questions surrounding college completion for individuals 
from underrepresented groups are deeply personal for me. I am a 
full-blooded White Mountain Apache from the Fort Apache Indian 
Reservation in Central Eastern Arizona. I was raised, along 
with my only brother, by my grandmother who was a product of 
the Indian boarding school system.
    Although my Grandmother's boarding school experience wasn't 
positive for her, she wanted us to be a part of something 
larger, and she knew that education would be the entry point 
into that something larger that she envisioned. However, 
neither she nor any of my other family members possessed the 
social or cultural capital to assist me in the college 
application process or to sustain me once I enrolled.
    There were no college graduates in my family. Adding to 
this lack of knowledge was the trauma of poverty that defined 
our lives growing up on the reservation.
    I was raised by my grandmother because I had lost my mother 
to domestic violence when I was a child. My father was absent 
from my life as he was in prison, and he later passed away from 
alcoholism. My only brother later committed suicide as a result 
of his experiences, which were not all too different from my 
own.
    The only difference of all of this was that I was given the 
opportunity of education. Having been raised in that 
environment, I was unsure of my own academic abilities and 
intimidated by the ever present challenges of life on the 
reservation.
    However, through the TRIO programs I found that the hands--
I found the hands that reached out to me, the ones I ultimately 
took hold of and did not let go.
    With the help of Upward Bound, I enrolled at the University 
of Arizona. With the assistance of the University's TRIO 
Student Support Services program or SSS, I graduated with my 
Bachelor of Arts Degree in Anthropology. Through SSS I received 
coaching around many decisions that seemed inconsequential at 
the time, in addition to the academic support I was already 
receiving.
    But for me and low-income, first-generation students like 
me, such advising made a critical difference. For example, 
during my freshman year, my TRIO advisor urged me to transition 
from a job off campus at the local mall to a campus based work 
study position so that I could stay closer to the TRIO office, 
the library, and my peers.
    My new job in the admissions office, helped solidify my 
identity and confidence as a student, while also sparking the 
passion that has fueled my career for the last 22 years. My 
experience as a TRIO student inform how I approach my work 
today as a TRIO Director.
    The emphasis on non-cognitive factors, a sense of 
belonging, leadership, and self-efficacy were the very things 
that kept me connected to and remaining in college. As a 
result, I work to ensure that the programs I oversee provide 
comprehensive academic, social, and cultural supportive 
services with measurable outcomes.
    As a research one institution, the University of Utah 
recruits high caliber students. However, low-income, first-
generation students who don't have the benefit of the 
supportive services provided by TRIO are only about half as 
likely as their peers to graduate within 6 years, 33 percent 
versus 60 percent. This is consistent with the national 
experience.
    I know that TRIO student support services makes a 
difference in college completion. At the University of Utah, 
TRIO SSS raises graduation rates for low income, first 
generation students by 42 percent. Nationally it raises 6 year 
graduation rates at 4 year institutions by 20 percent and the 
4-year graduation rates at 2 year institutions by 46 percent.
    At the University of Utah, we have accomplished this by 
instituting several practices that are grounded in research. 
Our institutional experiences and observations about what helps 
the most vulnerable students succeed.
    For example, our SSS program partners with the Office of 
Continuing Education and the math department to offer 
preparatory courses each semester to help students meet their 
curricular requirements. Otherwise students would have to 
venture off campus to take a similar course at the local 
community college.
    Additionally, as the University of Utah is primarily a 
commuter campus, we maintain both one on one, in person, and 
online tutoring options in order to meet fully the student's 
needs. This is a mere sample of the work we do.
    As stewards of Federal dollars, my TRIO colleagues and I 
understand that we must ensure that the programs we deliver are 
robust, replicable and impactful. Thank you for the opportunity 
to speak here today. I look forward to answering your 
questions.
    [The statement of Mr. Ethelbah follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman DAVIS. Thank you very much. And thank you all 
for staying in the time limits. Under committee rule 8a, we 
will now question witnesses under the 5 minute rule and as 
chair I will start and will be followed by the ranking member 
and then we will alternate between the parties.
    Mr. Ethelbah, I wanted to just start and thank you for 
sharing your story with us. You really have provided us with a 
compelling example of the transformative power of education. I 
want to thank you for that.
    Could you go into a little more detail perhaps about the 
TRIO program? I know you've helped us understand some of the 
programs that really made a difference from you but I want to 
ask you about one of the more unique components of TRIO that 
leads students to gain the confidence and the inspiration that 
they might not otherwise have. Could you tell us a little bit 
more about that?
    Mr. ETHELBAH. Sure. Thank you, Chairwoman Davis. In 
addition to the academics support that TRIO provides, one thing 
that has always been consistent with the programs overall which 
are intended to serve low income, first generation and disabled 
students to access and complete post-secondary education is the 
constant structure for the development of non-cognitive 
variables. And this is only something that has recently been a 
topic of conversation and research within higher education.
    So within my programs for example, in addition to the 
academic support like tutoring and academic advising, I also 
received workshop environments that provided support for my 
development in just general, every day cultural activities that 
I had not experienced before. How do to resumes, how to 
interview for jobs, how to really be a part of the rooms and 
the environments that I had not previously been privy too.
    And this is something that I constantly tell our students 
is and I have spoken to our students. In our last graduation 
which was last week, I mentioned to them that they're going to 
find themselves in places they don't, do not belong. And the 
reason I say that is because I am in a place I do not belong. 
When you look at Federal Indian policy, I am not supposed to be 
here. Yet I'm here.
    And this is the power of education. The power of education 
and the belief that is attendant within the individuals who 
support you is very much paramount and providing the support 
that we need. So there is none of us that has come to where we 
are merely on our own. We have all had support systems and TRIO 
has that in terms of adding to the academic supports but also--
    Chairwoman DAVIS. Could you also speak, Mr. Ethelbah, as 
you know we are all kind of limited in our time and about the 
intergenerational impact that this has on families and 
communities. What--that giving back to the community that 
people are more likely to be able to do. How did you see that 
in your situation and with other students that you have?
    Mr. ETHELBAH. Well, I don't have any children but I if I 
did have children they would not be low income and they would 
not be first generation. So within one generation, one 
generation removed from being a participant in TRIO programs, 
we have already knocked out the generational--the inter-
generational form of poverty that exists within these 
communities.
    In addition, I used to oversee education opportunity 
centers and talent such programs in the Las Vegas area and 
within those environments we worked with adults to also 
complete education to enter and complete high school education 
and then enter post-secondary. And on a number of occasions, we 
had the full family that actually entered the programs.
    We had a mother and daughter one year who graduated 
together, the mother with a bachelor's degree and the daughter 
with her bachelor's degree because we had the daughter in our 
Upward Bound program and the mother in our EOC.
    So just the vision of seeing someone in their family, 
someone familiar, someone they can recognize them and somebody 
who knows them, has had a tremendous impact on the ability for 
others to see themselves in that place as well.
    Chairwoman DAVIS. Yes, thank you. I know we also have 
people who work with TRIO students, wonderful counselors to 
help students, you know, see what they ordinarily would not be 
able to be, that you can't be what you can't see and so they 
are helping with that.
    But I am also wondering about particular training that they 
have that might make that difference because not everybody 
does, can do this job, right?
    Mr. ETHELBAH. No, no. The individuals that we seek to fill 
these positions primarily come from areas and what we look for 
that have areas within psychology, sociology, social work as 
well as education. In addition what we provide within the job 
itself is access to professional development opportunities 
wherein they'll get these connections to these industries that 
provide the foundational support for some of these things that 
they might be addressing.
    For example, we have partnered with different community 
agencies within Salt Lake City to make sure that our students 
are aware of or our staff is aware of the needs of adolescent 
minds, the adolescent brain in terms of undergoing stress and 
how to deal with the impact of just change that's occurring 
within their lives, let alone adding that traumatic experience 
like college education because it is a traumatic experience 
going from one environment to a completely a different one.
    Chairwoman DAVIS. Yes.
    Mr. ETHELBAH. So how do you measure that? And that's really 
the opportunities that we try to put on--
    Chairwoman DAVIS. Thank you very much. And to all of you, 
it's difficult to go back and forth sometimes. I know that 
everybody is going to have questions for the rest. Thank you. 
Mr. Smucker, please have your questions.
    Mr. SMUCKER. Thank you, Madame Chair. Dr. Rudd, I would 
like to get your opinion on a proposal that we had included in 
the HEA reform bill last session but it also was proposed by 
the--by President Obama and his administration. It would be 
essentially a Pell bonus to students who are enrolled in enough 
credits to graduate on time, 30 credits per award year. Do you 
think that policy proposal could be an effective tool to 
increase on time completion rates?
    Mr. RUDD. I do. And I think a lot of the evidence that we 
have demonstrated its usually small amounts of money that make 
a big difference. So if you look at the scholarshipping that we 
created that specifically moved our African American male 
graduation rate for those that participated with the 
scholarship, doubled it, the average cost of that was $4,000 
per individual. So relatively small amounts of money can make 
very significant difference. I would agree with that.
    Mr. SMUCKER. Thank you. Mr. Ethelbah, I really appreciate 
your story. I can relate. I was the first in my family to 
graduate from high school and when I talked about higher 
education beyond that, and as I mentiond I was a non, I ended 
up being a non-traditional college student attending at night 
while I was operating a business during the day.
    But I had no idea how to access college. I was fortunate to 
have loving parents and a great family but just simply did not 
place the value on education in a way that I was able to 
experience.
    But one barrier that we hear a lot about is trying to fill 
out the FAFSA form and I have had the opportunity to do that 
with my own daughters and have seen the sometimes difficulty or 
the complication of that form. So I guess I would like to hear 
from you the effect that this form has, whether you think it is 
complicated, the fact that it has on the student population 
that you work with and would simplifying the form, what would 
that mean to low income students and their families?
    Mr. ETHELBAH. Thank you, Ranking Member Smucker. The FAFSA 
in general, I think has gotten a lot easier to maneuver but 
there is still room for improvement. I think simplifying that 
would definitely be a good step in helping to provide more 
access to individuals who might be applying. Additionally 
though, once the FAFSA is actually submitted, the process for 
verification has become the other bureaucratic component that 
tends to impede individuals ability just to move forward in 
college education. So I think that's another area that we can 
look to address more and that would be a look at the 
regulations in terms of what is required to prove that the 
information they submitted on the FAFSA is actually accurate 
and then true.
    Mr. SMUCKER. Yes. Thank you. We will look forward to 
working on that together. Dr. Dynarksi, we have spoken about 
the need for college education or for some education for a lot 
of the jobs that are being created today. There is a Georgetown 
Center and Education Workforce estimated that over 95 percent 
of the jobs that have been created since the recession have 
been filled with those, with at least some college education.
    We have also been a proponent here I think in a bipartisan 
way of looking at other pathways to careers. They may not all 
require baccalaureate degree but also I think it is 
increasingly important that students receive some form of post-
secondary education.
    So I guess I would like to get your reaction to that. Do 
students with some college have the potential for an increase 
in earnings potential? And as you look at the jobs that will be 
created in the next decade or so, what will the requirements 
be?
    Ms. DYNARSKI. Thank you for your question. The some college 
category sort of lumps in everything that's not a BA and that 
could include anything from an AA degree in, you know, in 
healthcare or a certificate or just some credits. And each of 
those has a different pay off.
    So the evidence indicates that the payoff to an AA degree, 
especially one that's in the sciences and the STEM fields is 
quite consistently high. AA's in academic fields don't tend to 
pay a whole lot.
    Certificates, the evidence is very mixed. Certificates are 
largely unregulated, you know, while degree programs have to go 
through an accreditation process, a certificate is pretty much 
whatever an institution calls a certificate and they can range 
in length from a few courses to a couple of years.
    What we see is that the payoff to them tends to go up the 
longer that they are except in for profit colleges, where the 
pay off to a certificate is essentially zero.
    Mr. SMUCKER. Thank you. Dr. Eddinger, I am out of time. I 
was going to ask you a similar question so hopefully you will 
have the chance to address that intersection with the education 
and work force as in response to the future questions.
    Ms. EDDINGER. Of course. With the focus on adults it is 
important for us to be able to chunk out the educational 
experience because they need to go in and out of the work force 
while they work in support of family. And hopefully after they 
get the, their initial stack, the employer will be willing to 
pay for the rest of their education.
    So I think we can do that and I think it's useful but we 
have to be mindful that whatever we stack on top are portable 
so that when my students transfer to Dr. Rudd they don't lose 
anything in that process.
    Chairwoman DAVIS. Thank you for that. Mr. Takano.
    Mr. TAKANO. Thank you, Madame Chair, and thank you Ranking 
Member Smucker.
    We all know that financial--the financial benefits to 
completing a college degree, let there be no doubt that there 
is value in that. We also know that students are struggling to 
afford more than just tuition and that there are significant 
barriers to students completing their education in a timely 
manner.
    In December, 2018, the GAO released a report examining the 
issue of food insecurity among college students. I have met 
with students from my district across California that have been 
calling on Congress to figure out how to address their basic 
needs that include access to food, nutrition, and affordable 
housing.
    And if so many of our students that I taught during my 24 
years of public, as a public school teacher, had needs to 
access for free or reduced school lunch, we can't assume that 
as they enter the university system that they're going to have 
any less need for nutrition. And to assume that that's going to 
magically disappear when they turn 18, I think is also kind of 
magical thinking.
    I have personally have visited a food pantry on one of the 
community college campuses that I used to be in my purview as a 
community college trustee, NORCAL College and I was shocked 
that they said this is what the students said they needed. The 
California State University system has a basic needs initiative 
that focuses on the wellbeing of students in and out of class. 
All of their 23 campuses have a food bank or a food 
distribution program.
    And I was when I met with the state wide chancellor, he 
told me about students living in cars and I have met with 
students from Berkley who said they have to go way, way, way 
out of in--a long radius from the campus to get affordable 
housing. And that drive time also, you know, that's going to 
affect their ability to be good students. In addition to maybe 
having to work, this is all adding up to I think endangering 
their ability to graduate on time.
    Across the country, they are emergency aid programs 
available on a college by college, state by state basis but we 
need to suss out what Congress can do to remove or lessen these 
barriers because it is only going to increase their likelihood 
of defaulting and that is only going to be I think an 
inefficient use of tax payer money unless we help these 
students graduate on time.
    Dr. Eddinger, what should a basic needs or completion grant 
program in HEA look like on a larger scale?
    Ms. EDDINGER. We can't food pantry a way out of this 
problem. That is a philanthropic patch, all of us have it, it 
is not permanent, not sustainable.
    I think part of it is to index, when we index need for 
students we have to account for the total cost of education 
versus just tuition and fees. So the unmet needs per student on 
my campus is about $5,000 and that's the food and housing and 
childcare and the transportation.
    So somehow in not only indexing Pell to inflation but also 
indexing it to the need for basic needs and make that part of 
the calculation, I think that's really important.
    The other is to align the policies for Pell for students 
who are on Pell with programs like SNAP so that work 
requirements can be substituted by study requirements. So the 
students have the leisure then to be able to study with funds. 
It is a policy issue. It is a long term policy issue.
    Mr. TAKANO. Well, thank you. That makes sense to me, I 
mean, when I went to an elite private school the financial aid 
package was based on the total cost of education and the grant 
was, you know, there was a combination of grant, work study, 
you know, all the elements. So there was personal 
responsibility involved but it was also a realistic picture of 
what it takes to get through a 4-year program.
    So should we be thinking of a Federal, State partnership? 
What role should each entity have? Do you have, have thoughts 
on that?
    Ms. EDDINGER. I'm hoping no one from Massachusetts is in 
the room. I think it needs to be a partnership. I know that in 
California Cal Grants and the Pell Grant work together so that 
students can use the Pell Grant for living expenses and a lot 
of the Cal Grants for tuition and fees.
    I think there needs to be an alignment and an agreement 
between Federal and State implementations so that it is not 
always a juggling act between the two, maybe as a matching 
program, maybe as a percentage program. There has not been a 
whole lot of conversation at least that I know of that is 
really helping us so that might one of the things to move into.
    Mr. TAKANO. Looks like we have a lot of work to do in terms 
of imagining and creating. I, my time is up and I yield back.
    Chairwoman DAVIS. Thank you. Mr. Guthrie.
    Mr. GUTHRIE. Thank you. Thank you for having this hearing 
and thanks for everybody being here today. Dr. Rudd, first a 
question for you. I actually grew up in an area where Memphis 
was our big city, so one of our big cites we went to kind of 
between Memphis, Nashville and Birmingham and so I have a lot 
of affection for your university.
    So and, Dr. Rudd, in your testimony you mentioned the 
importance of academic coaching and speaking of coaching, we 
appreciate Coach Calipari as well so I'm in Kentucky now. To 
improve student outcomes. Currently the Federal Government has 
ineffective entrance and exit counselling process for 
recipients of student aid.
    This is why I introduce with Suzanne Bonamici the 
Empowering Students through Enhanced Financial Counseling Act 
which would require more detailed and annual counseling for 
Federal aid recipients throughout their education to ensure 
students are fully aware of their financial responsibilities.
    So having said that so on just making sure people fully 
understand, we hear people say I thought I was getting a grant 
but I was getting a loan, I didn't know I had to pay it back. 
You have a lot of, I don't know if it was hearing what you 
wanted to hear when you signed up for the student aid or if it 
was just misinformation or they just didn't try to understand. 
So my question is what recommendations do you have for Congress 
to improve the financial counseling process?
    Mr. RUDD. Well, I think students need to understand very 
specifically what the, you know, what the guidelines are, what 
they're borrowing and what the payment structure looks like and 
understand what that means over the long term. And I don't know 
that students understand that specifically when money is 
borrowed and what the payment structure might be over the long 
term. I do agree that more assistance is needed on that front.
    The other thing, you know, that I think is interesting, we 
have discovered that if you look at advising, it's not just 
advising about the financial, the financial consequences for a 
student but it's advising around core structure and what you 
take. Most students change their major.
    What happens for Pell students is they'll take a course, 
retake a course that they have failed, eventually they will 
expend their loan capacity, get to the end of their loan 
capacity and not be able to finish. If you look at the Finish 
Line Program, what we were doing for a lot of those students is 
helping them complete once they've exhausted their loan 
capacity because they haven't been advised well on what course 
structure works best within a sequence.
    So it really is twofold. I mean, there local advising and 
then there is financial advising. I think both of those really 
need to go hand in hand.
    Mr. GUTHRIE. Okay. And I know a lot of our student debt 
issue are students who just don't complete but and they get--
they have debt but they don't have the degree to help pay them 
off. And sometimes it is people getting in fields that are not 
as able to pay it back and not as in an investment risk reward 
or investment. So University of Memphis Research Foundation 
Ventures, the program, I'm impressed with how it is helping 
students gain work experience in a relevant field while 
decreasing their work hours, improving career pathways. How 
could this program be used as a model at other institutions?
    Mr. RUDD. Well, I think it easily could be used as a model. 
You look at local work force needs. This is a great example of 
local companies that have high need. If you look, Memphis is a 
great example. There are arguably 15 to 16,000 unfilled jobs 
and it provides a pathway for those students to get practical 
experience while they're in school, work for a reasonable wage 
that lowers the demand for them to work 30 plus hours. They can 
reduce that to 20 plus hours, focus on academics, move through 
and ultimately move toward graduation and more reasonable way 
but also get great experience with that company.
    I mean, of the Ventures program, of those students that 
have worked in these, for these different companies, each of 
the graduates that we've had over the course of the first 2 
years have gone on to work full time for those companies. And 
they have loved that. It has created a wonderful pathway but 
one that benefits the student from the very beginning.
    Mr. GUTHRIE. Thank you. And Dr. Eddinger, I see you shaking 
your head. You've, Bunker Hill has a similar program--
    Ms. EDDINGER. Yes.
    Mr. GUTHRIE. And could you explain what you guys do to 
create pathways for students to enter apprentice opportunities?
    Ms. EDDINGER. Yes, we do. We have a learn and earn programs 
and over the last 3 or 4 years we've run about 450 students 
through it. First time, no corporate experience, they come back 
and they're ready. And it does pay a decent wage, it pays $15 
an hour and transportation which is key to part of the urban 
environment.
    We find out its very useful and it doesn't really even 
matter what field that they're getting their experiences. It's 
being immersed in the workplace. So I love the idea of that 
program.
    And in terms of the counseling, it is really assisting the 
students to map out what they're going to do in 2 years or 4 
years if they transfer and helping them sort of navigate those 
narrower lanes rather than letting them wander everywhere. So 
that has been useful for us.
    Mr. GUTHRIE. Well, thank you very much and my time is 
expired and I yield back.
    Chairwoman DAVIS. Thank you. Ms. Jayapal.
    Ms. JAYAPAL. Thank you, Chairwoman Davis, and thank you all 
for your excellent testimony. I do have a College for All bill 
that I think addresses many of the issues that we are talking 
about including, it includes Federal, State partnerships, it 
includes addressing the total cost of education and it includes 
the enormous burdens of student debt that are racking our 
country and making it so unaffordable.
    I think listening to your testimony and from everything I 
have heard from my constituents, what occurs to me all the time 
is that whether or not you complete has nothing to or very 
little to do with your academic ability. It has so much to do 
with what supports and services you are able to get and the 
financial burdens that are placed on people.
    Last week, Temple University released the results of a 
survey indicating that 45 percent of student respondents from 
over 100 institutions said that they had been food insecure in 
the past 30 days. It's kind of a stunning statistic. And I 
think the data shows that students are not completing their 
degrees because of these severe financial struggles.
    I would argue that a Federal investment to insure students 
can graduate debt free is the key solution to this massive 
problem. But let's go to some specifics.
    Dr. Dynarski, in your written testimony you state that 
because rising student debt has shifted financial risk onto 
students, graduation from college is even more important today 
than it was previously. Can you say a little bit more about 
what you mean by that?
    Ms. DYNARSKI. If you look at default rates, so who is 
defaulting on student loans, it is not the college graduates, 
it's not the people who get a BA. It's overwhelmingly people 
who just got a few credits of schooling, exited with only 
perhaps $5,000 in debt. But because they got very little 
schooling in the course of getting that debt, they are unable 
to support the expenses.
    And the consequences of this, of defaulting on even a small 
loan are quite severe so having a default on your credit record 
means that when landlords check credit records, as they do, 
you're denied housing. Many employers now check credit records. 
It can affect your employability.
    So there is--it makes credit cards more expensive, it makes 
car loans more expensive so it has a real hit on people's 
financial wellbeing when they go into default and it's more 
likely if they don't complete.
    Ms. JAYAPAL. And it really affects the entirety of your 
life, not just your education loan. You also discuss how degree 
completion varies by sector with for profit colleges having the 
lowest completion rates by far. As a whole, is the for profit 
sector paying off for students?
    Ms. DYNARSKI. The best evidence we have indicates that for 
profit students do not benefit from their educations. Community 
college students do. Students at public 4 year colleges do. At 
private, nonprofit colleges do but the evidence is that 
students come out of the for profits making the same as they 
did when they went in which tends to be very low wages.
    Ms. JAYAPAL. You cite, can you just cite the statistic from 
is it Cellini and Turner that you put into your--
    Ms. DYNARSKI. She's right behind you.
    Ms. JAYAPAL. Okay. So students get no earnings boost from 
attending a for profit college. Is that--
    Ms. DYNARSKI. That's correct.
    Ms. JAYAPAL. Is that correct?
    Ms. DYNARSKI. That's the statistic. No, none, yes.
    Ms. JAYAPAL. Okay. So, Dr. Eddinger, let me turn to you and 
thank you for your holistic approach that you described. An 
Education Department survey showed that financial troubles, 
family responsibilities, and personal issues were the top 
reason cited by students for dropping out of college. Not 
academic problems.
    Does that comport with the conversation that you have had 
with your students at Bunker Hill Community College?
    Ms. EDDINGER. Yes, it does. We have--when we looked at a 
cohort of students who have dropped out, as I noted earlier, 
they had B, B minus averages and they were--they have completed 
close to 10 classes and that's a lot of classes. These are 
committed students.
    So part of our struggle is to try to get them back. So our 
students sometimes come back after a year, they come back after 
2 years, they come back after 3 years. They are tenacious. It's 
just that they don't have the path forward sometimes and the 
resources.
    Ms. JAYAPAL. Mr. Ethelbah, thank you so much for your very 
moving testimony and just for sharing your story. I think it is 
so important. Can you speak a little bit to your experience of 
how low income students and students of color in particular are 
affected by the increasing costs of post-secondary education, 
either in terms of starting or in terms of completion?
    Mr. ETHELBAH. Oh, yes. Yes, thank you for your question. I 
think this impacts this community and this population a lot 
more in that there is a lot more expectation put on this 
population to go forward and succeed regarding and in light of 
everything else.
    One thing that I generally tend to see though with the 
population that we serve is what we call front loading in the 
industry. When you receive financial aid, there is a lot more 
focus on your first 2 years to get financial aid in terms of 
nonFederal dollars.
    And so our institution has started to look at that a little 
bit more closely in that we can provide more supportive 
services so once they get to their junior and senior years 
rather than maybe their first 2 years where we tend to see the 
students having not so much of a difficult time but toward the 
end where they do.
    Chairwoman DAVIS. Thank you very much. We are going to move 
on to our--
    Ms. JAYAPAL. I yield back.
    Chairwoman DAVIS.--next question. Ms. Stefanik.
    Ms. STEFANIK. Thank you, Chairwoman Davis. I wanted to put 
an exclamation point on my colleague Ms. Jayapal's comments. We 
are facing historic student loan debt. $1.5 trillion in total 
and I strongly believe that one of the keys to tackling this is 
increasing college completion rates because students are more 
likely to be able to fulfill that repayment structure if they 
in fact graduate with a degree for which they took the student 
loan out. So thanks for that line of questioning.
    My question is for Dr. Rudd and Dr. Eddinger as college 
presidents. Can you talk about the challenges for students who 
transfer from one institution to another and the risks that are 
a result of that in some cases when it comes to completion and 
what are best practices to avoid some of those risks? Dr. 
Eddinger, why don't you go first?
    Ms. EDDINGER. Sure. From the point of view of community 
colleges, we have always fought the issue of brand, right. 
Community college in the past have never been--have been the 
stepchildren of the educational pathway.
    And even though some of our adjuncts would teach at 4 year 
colleges teaching the same material, when it comes to 
acceptance of credits, they're not. My math credits are 
accepted MIT but they're not accepted at the state 
universities. It is random, it is subjective and I think unless 
we have a good process of alignment our students will continue 
to repeat courses over and over again.
    Ms. STEFANIK. Dr. Rudd.
    Mr. RUDD. Yes, I would agree. I think that good, clear 
articulation agreements are needed. We have I think what argue 
in Tennessee that we have very good specific articulation 
agreements. I do think the other risk though that is related to 
that particularly in the STEM areas is that the question of 
whether or not the early preliminary courses in some areas 
prepare the student well for advanced level courses at the 
university level.
    The response to that is really to have faculty work 
together around the development of the curriculum from the 4-
year university to the community college in the 2-year location 
and we do that. So I think we have had some good solutions to 
that problem and made sure that students that we are going to 
pursue computer science were well prepared or they were in math 
or in other STEM areas that they were well prepared for 
advanced courses once they move on to the university.
    Ms. STEFANIK. I appreciate your comments, Dr. Eddinger, on 
the importance of community colleges. They are exceptional 
institutions. In my district I think of Adirondack Community 
College which has been extraordinarily successful or Jefferson 
Community College.
    My next question is on how can we reform Federal work study 
programs so that more students are able to work in jobs that 
are related to their careers and their academic courses of 
study? Because I think particularly for nontraditional students 
who we know are working at the same time as they are taking 
courses, we want to make sure that employment experience helps 
with their academic work because I think that will help us 
address this completion rate issue. Dr. Rudd, why don't you go 
first?
    Mr. RUDD. You know, I would say to really explore and look 
at alternatives about partnering with some of the corporate 
programs like the ones we have developed. I mean, we have 
wonderful corporate partners but they are restricted in the 
capacity to look at work study funding, to create some flexibly 
and options for partnering as a part of it.
    The majority of those opportunities that we have are 
private opportunities but to find a way to leverage Federal 
dollars for other dollars in the community and really expand 
that base, I mean, we could very quickly expand the work 
opportunities that we have provided for students if we had some 
flexibly in how those funds were expended.
    Ms. STEFANIK. Dr. Eddinger?
    Ms. EDDINGER. We can also use the system to reinforce the 
academic rigor of what they do. We have students who use work 
study to serve as peer mentors or to serve as tutors so that 
they are role models for the students coming up. So that 
particular identity and social contract between them actually 
promotes retention so I would agree that they need to be tied 
tighter.
    Ms. STEFANIK. Thank you very much, I yield back.
    Chairwoman DAVIS. Thank you. Mr. Levin.
    Mr. LEVIN. Thank you, Chairwoman Davis. Well, welcome to 
all of you, I am, maybe the, I don't know, the only Member of 
Congress who used to run a state work force system and worked 
with the community colleges and universities. We ended up 
creating a program called No Worker Left Behind during the auto 
implosion and the industry implosion, the great recession in 
Michigan which put 162,000 workers back to school to study for 
in demand jobs. And I think partly due to Professor Dynarski's 
research, we found out that about 120,000 of them got jobs 
related to their training.
    But this issue of completion and its intersection with 
workers sort of live lives and the cost of college was a huge 
problem. In your testimony, Dr. Dynarski, you shared data 
demonstrating about how different institutions have very 
different graduation rates. And it is clear that from your 
research or the research you cited that the student's 
likelihood of success is greatly impacted by which kind of 
institution they attend.
    So can you unpack a little more how the high cost of 
college impacts where students, low income students enroll and 
how it, this affects college completion?
    Ms. DYNARSKI. So--
    Mr. LEVIN. Like what is really going on here for these 
poorer students?
    Ms. DYNARSKI. Low income students are concentrated in the 
community colleges and in the non-selective 4 year public 
colleges and in the for profit schools. As I mentioned earlier, 
you know, the universities, the elite universities in our 
country, per student expenditure is $40,000 per year--
    Mr. LEVIN. Right.
    Ms. DYNARSKI [continuing]. on instruction. 10,000 for a 
community college. So they're in the places where the least 
money is being spent and they tend to have the highest needs. 
They also, the community colleges have traditionally been the 
access institutions with the lowest prices and that's another 
reason that disadvantaged students are attracted to them.
    Mr. LEVIN. And then so many low income students end up 
working long hours often at multiple jobs just to make ends 
meet while they are trying to be in school.
    Dr. Eddinger, what impact do these long hours have on 
student's abilities to complete in a timely fashion and, Dr. 
Rudd, if you also want to comment on that I would appreciate 
it.
    Ms. EDDINGER. I think the issue is pure mathematics. In 
order to take five classes which is a full load so you can 
finish in 2 years, that takes up 45 hours a week of studying 
and being in class. So whatever else that you can squeeze in 
there is the quality of what you would get. So there is a very 
clear correlation just in time alone, much less taking care of 
children and, you know, going to doctors and fixing your cars 
and all of those other pieces. It's time and it's money.
    If we are able to give students that $4500 or $5,000 that 
they are in need, each one of my students who are on Pell 
Grants are short that much money, they cannot work as much and 
they can go to class. 45 hours a weeks is a lot of time that 
they're not having in those classrooms.
    Mr. RUDD. Yes, I would agree completely. Every single 
intervention that we have done that lowered work demands, that 
lowered the number of outside hours they had to work, improved 
performance and time to graduation. We have not had a single 
effort in that area that hasn't improved time to gradation.
    Mr. LEVIN. Thank you. You know in, I mean, No Worker Left 
Behind is, it was complex but basically we gave people up to 
$10,000 of free tuition at any community college, university or 
other approved training program, plus childcare and 
transportation.
    And people said, we did not give people a stipend, you 
know, but we had a waiting list in all 83 of Michigan's 
counties and people found a way to make it work when we gave 
them some real money to go study.
    Let me just ask you, Dr. Dynarski, because you have talked 
about the for profits. Why are completion rates there so low 
and what can we do about it as policymakers?
    Ms. DYNARSKI. I think the for profits show, you know, have 
great promise and that they could be a locust for innovation, 
for testing new approaches. That would require that we not only 
let them innovate but that we hold them accountable for their 
outcomes and it's that part of the equation that's been 
missing.
    So we have not been regulating and providing oversights to 
the for profits in a robust manner. It hasn't happened. And the 
results of that fall on students who end up not graduating or 
if they graduate with a degree that isn't worth anything.
    So it's a failure of public policy I would say that the 
graduation rates are low and that for profits students end up 
with such high debt loads and end up defaulting.
    Mr. LEVIN. And so we can't treat all educational 
institutions the same, you are saying. We would have to, you 
know, have accountability measures for non-profits that would 
hold them specifically accountable.
    Ms. DYNARSKI. I think we need to have accountability 
measures that we actually enforce and that's what we have not 
been doing.
    Mr. LEVIN. Okay. Thank you. My time has expired. Thank you 
all so much.
    Chairwoman DAVIS. Thank you. Mr. Timmons.
    Mr. TIMMONS. Thank you, Ms. Chairwoman. I yield my time to 
Dr. Foxx.
    Mrs. FOXX. I thank the gentleman from doing that--for doing 
that and I thank our witnesses for being here today. Dr. 
Dynarski, earlier this year, the Wall Street Journal published 
an article on dual enrollment courses which are college level 
classes taken in high school that fulfill both high school and 
college credit requirements and I haven't heard any of you 
mention that as of an alternative for many students.
    But the author of the story cited a study by the University 
of Texas system that found students who took dual credit 
courses in high school were three times more likely to graduate 
college than their peers who did not take any dual enrollment 
courses.
    Are you aware of any other States or institutions that have 
seen similar results implementing concurrent enrollment and 
what are these results mean for schools and policymakers going 
forward?
    Ms. DYNARSKI. Dual enrollment certainly smoothes the 
process for students. So if we think there are barriers for 
students to filling out forms, to understanding how college 
works, then dual enrollment means that they're getting those 
skills while they're still in high school.
    I think part of the positive effect that we see of dual 
enrollment is that the students who dual reenroll while they're 
in high school tend to be excellent students anyway. I don't 
think it's likely a solution for the students who tend to go to 
community colleges for example after high school. The students 
who come in with relatively weak academic preparation were 
probably not able to dual enroll in college while they were in 
high school. They were trying to get though their high school 
courses.
    Mrs. FOXX. Well, I would like to introduce you to what is 
going on in North Carolina because I think the situation in 
North Carolina is quite different from that and they are not 
all going on to senior institutions.
    Mr. Ethelbah, thank you for your story. I'm a former TRIO 
director and loved my experiences there. Would have been a TRIO 
student had there been a program around in those days. I'm 
interested though in how TRIO programs set their standards for 
success and use evidence based practices to serve students.
    Do you use objective benchmarks to measure students' 
progress over time? And to what extent do you change your 
programs structure to make sure you are using proven strategies 
to help students earn a college degree?
    Mr. ETHELBAH. Thank you, Dr. Foxx. Yes, we use evidence 
based processes. First of all, the Department of Ed requires us 
to report on our outcomes based on three objective criteria for 
our student support services programs. So basically a student 
who persists from 1 year to the next as well as remains in good 
standing and graduates within 6 years.
    Within that parameters, we have worked with the 
institutions, Office of Institutional Analysis as well as 
support programs to ensure that we're meeting those benchmarks 
following within regulation and then additionally what supports 
that we can really introduce.
    For example, we have as I mentioned in my testimony, we 
have a course that we offer that's not offered at an 
institution at all. It's a developmental math course. We 
studied the students who took our course, what kinds of grades 
they got relative the students who did not take our course. We 
found that the students who took our course did better in our 
course and that seemed obvious but they also did better going 
into the next level as well.
    So we are looking at the process for that. And for those 
students who did not we have introduced a new position, a math 
navigator position who will work with students who took out at 
one point our course to help them prepare in the math area so 
we have got those connections to the campus to make sure that 
we are meeting the objectives and working with the institution 
in such a way to make sure that we are implementing and 
improving along the way.
    Mrs. FOXX. Thank you. In 1974, I started a developmental 
math course for our students which Appalachian State University 
then used--now uses, still uses, for all freshman coming in 
that meet the need--that have the need. College courses, all of 
you are citing 6 year graduation rates. Dr. Rudd, you, that is 
what you all are talking about. I believe perpetuating this 
narrative while convenient for institutions of post-secondary 
education is detrimental to perspective students who will take 
on more debt and spend more time than perhaps necessary to 
complete their studies.
    Can you elaborate on how the University of Memphis and your 
Ventures company are not only helping students graduate and 
find careers but graduate within 4 years?
    Mr. RUDD. Well, I think its--I absolutely agree with you. I 
think the narrative ought to be we need to talk more 
specifically around 4 year graduation rates, dual enrollment 
certainly helps do that. It lowers debt and moves students 
quicker.
    Our company that we started and we will continue to expand 
that. We have every expectation that we will expand that 
exponentially over the course of the next couple years. It 
provides the resources necessary for students to focus on a 
full time load and as a result reduce time to graduation. That 
is entirely behind the effort is to try to reduce debt, reduce 
time to graduation, provide a pathway to a career and do that 
in a truncated timeframe and we are having good success with 
that so far.
    Mrs. FOXX. Thank you, Mr. Timmons. Thank you, Madame Chair.
    Chairwoman DAVIS. Thank you. Thank you very much. Mr. 
Scott.
    Mr. SCOTT. Thank you, Madame Chair. Madame Chair, I was an 
Upward Bound counselor when I was in college for 3 years, that 
was my summer job. And I saw the importance of the TRIO 
programs. Students in TRIO know that they have a strong support 
system to assist them in choosing the college and career, 
counseling, tutoring and more to help them get through.
    Without TRIO many of these students wouldn't have 
graduated, many wouldn't have even gone to college. So I 
continue to see the impact of TRIO programs in my district 
every year. Nearly 2/3 of the students participating in student 
support services at Thomas Nelson Community College either 
complete a degree or transfer to a 4-year college. While there 
is certainly room for improvement, that's a lot better than the 
graduate, 3 year graduation rate of 15 percent.
    At Hampton University, 95 percent of the student support 
services program participants were either retained or 
graduated. 94 percent stayed in good academic standing.
    At Paul D. Camp Community College, those students had a 100 
percent persistent rate. The evidence is clear those programs 
work.
    And so, Dr. Rudd, the Memphis Advantage Program, how does 
that compare in terms of the services available to a TRIO 
program?
    Mr. RUDD. Very similar. We are just doing that with private 
money. So those are just private dollars that we use to support 
those students but very much, very similar. In terms of not 
just providing financial support but providing mentorship and 
development support that addresses some of the psychosocial 
demands for the students.
    Our students leave primarily for two reason--two reasons. 
Money and psychosocial stressors and just life circumstance is 
what tends to drive students away and that program provides 
support in that area.
    Mr. SCOTT. So I believe you mentioned the number of hours 
worked is detrimental to your progress. Is there a number of 
hours you could work during the week without affecting academic 
achievement?
    Mr. RUDD. We have capped the work hours for the students in 
our Ventures program at 20 and so part-time load and we have 
seen good evidence of that. It allows students to focus 
specifically on moving through the system and trying to target 
moving through more quickly than a 6-year timeframe. So I think 
a cap of 20 hours allows reasonable amount of time for a 
student to focus on school as well while meeting financial 
demands. But again it raises the issue of making sure they have 
a wage that is a livable wage.
    Mr. SCOTT. Now several of you and the ranking member have 
mentioned the 6-year graduation rate. It's obvious that if 
people are graduating in 4 years they will be charging less in 
Pell Grants, student loans and everything else.
    What do you think of programs that would provide more Pell 
Grant assistance if you're graduating on target for 4 years 
rather than 6?
    Mr. RUDD. I certainly would support that and the idea of a 
bonus in terms of movement through I think is a very good idea. 
We are along with a lot of universities, are finding tuition 
incentives for students in terms of tuition reduction if you 
move through more quickly.
    So I think there are a lot of different ways of providing 
incentive for students to move through the system quickly and 
ultimately to lower debt.
    Mr. SCOTT. Does anyone else want to comment on programs to 
take advantage of the fact that those who graduate in 4 years 
will cost the Federal Government less, much less than if they 
graduate in 6 years?
    Ms. DYNARSKI. I could comment on that. And for that matter, 
those who gradate in 2 years instead of 3 years from a 
community college cost a lot less. So the ASAP program that 
CUNY came up with and that's been extended to Ohio, costs less 
to produce a degree than other community colleges do because 
the students are getting through so quickly. So while you are 
having to spend a few thousand more per student per year, you 
are actually spending less per degree.
    Mr. SCOTT. And can you talk about the eligibility for 
financial aid to cover remedial courses?
    Ms. DYNARSKI. That is a problem for a lot of disadvantaged 
students is that they come in having to take courses and using 
their grants for courses that don't move them towards a degree. 
So, you know, you--if you don't even get to credit bearing 
courses, you're not making progress towards your degree but you 
are using up your Pell Grant dollars.
    Mr. SCOTT. Well, what is the alternative?
    Ms. DYNARSKI. Extending Pell Grant eligibility for students 
who need more support.
    Mr. SCOTT. Thank you. I yield back.
    Chairwoman DAVIS. Thank you. Thank you. Mr. Cline?
    Mr. CLINE. Thank you, Madame Chairman. Professor Dynarksi, 
I believe I heard you say that in your studies it was clear 
that the largest, the biggest challenge to completion rates is 
not necessarily the external factors but the cost of 
completion. Is that essentially just the increased costs of 
higher education? Is that proving to be the highest barrier to 
completion rates?
    Ms. DYNARSKI. I would say that access to quality 
institutions is probably the greatest barrier.
    Mr. CLINE. Okay.
    Ms. DYNARSKI. So even if we make education free, as we--
education is free in K12. For post-secondary, we charge 
something.
    Mr. CLINE. Nothing is free when it's provided by the 
government.
    Ms. DYNARSKI. Of course. I'm an economist. Like some, 
everyone--somebody is paying of course.
    Mr. CLINE. Right.
    Ms. DYNARSKI. But my point is that it's free to the 
student.
    Mr. CLINE. Right.
    Ms. DYNARSKI. If we make colleges free but we don't provide 
quality educations we are not doing anybody a favor.
    Mr. CLINE. Okay. So the increased costs are definitely 
providing some barriers to students to either achieving a 4-
year degree, starting down the road to college or completion.
    Dr. Rudd, I followed with interest your testimony about the 
Ventures program, the ACE program, the Finish Line, helping 
meet the costs of achieving that higher education. But 
affordability is a concern for me. Want to actually drill down 
a bit. Have your costs--I know your costs have increased in 
providing that education. Has your tuition rate--how much has 
it gone up over the past 5 years?
    Mr. RUDD. Well, this is actually, the last 5 year stretch 
is the lowest tuition increases in our history so we actually 
have an average of 1.7 percent per year over the last 5 years. 
And we have had 2 years with no tuition increase over the 
course of the last 5 years.
    Mr. CLINE. That's fantastic. Have--so obviously your costs 
have risen. What have you done internally to address and 
control those costs?
    Mr. RUDD. Well, we have got a broad--we do two things. We 
have got a broad based overall efficiency and effectiveness 
effort that we do in terms of looking at the efficiency of what 
we do administratively, how we deliver what we do.
    But more importantly, and I think one of the things that is 
lost in some of the discussion is retention in completion 
improves, our overall funding level has improved. We just 
haven't, we have offset student costs with our improved 
performance.
    As our retention goes up, we have more tuition dollars and 
as our performance goes up, our funding in the state is a 
performance based funding so our state level support has gone 
up and we have not moved that to the students. We have 
contained it recognizing that affordability and financial 
pressure is the No. 1 stressor for students moving through and 
completing.
    Mr. CLINE. So in terms of your administration costs, your 
different costs of whether its course offerings, how many are 
scaling back the course offerings, energy costs, what is your 
greatest stressor on--in terms of costs to providing that 
education?
    Mr. RUDD. Well, personnel costs. Probably 80 percent of 
what we do from a budget perspective are personnel costs. And 
certainly insurance is always an escalating cost for us.
    Mr. CLINE. Okay. Any innovations there? Any in terms of 
health insurance or retirement funds or any kind of--are you 
increasing the percentage of part-time faculty that you hire 
or?
    Mr. RUDD. We have actually moved to try to cap the 
percentage of part-time faculty. We have been concerned about 
making sure that we continue to deliver a quality educational 
experience and to make sure that adjunct and part-time faculty 
that we limit the number of individuals.
    We certainly hire more--we certainly hire more full-time 
teaching faculty than we have in the past. I mean, we have 
looked at overall workload and teaching load as a part of that 
as well.
    Mr. CLINE. What about your administrative costs as a 
percent of your budget? Have you scaled back your 
administrative personnel?
    Mr. RUDD. We have. We arguably have less administration 
today than we had a decade ago, maybe 15 years ago. I can 
certainly tell you my office is less than half the size it was 
6 years ago. So we have been very thoughtful. We are also we 
have moved to try and we are actively working on trying to 
calculate a good administrative index to think about how we 
share and discuss particularly with our trustees and the 
community about administrative costs and we are actively 
exploring how best to create a metric around doing that, one 
that really captures it well. But we have had a strong 
commitment to reducing administrative costs.
    Chairwoman DAVIS. Thank you.
    Mr. CLINE. Thank you.
    Chairwoman DAVIS. Thank you, Dr. Rudd. Mr. Sablan.
    Mr. SABLAN. Yes. Thank you very much, Madame Chair. Good 
morning, everyone. I'm going to have questions for the record 
that I will submit and if you would please respond to those in 
writing.
    I'm going to go off the guardrail here. You see me do that. 
And if I don't make sense, please tell me. But, you know, the 
fact of the matter that 4 out of 10 students who enroll in 4 
year colleges never graduate. Its, that's a serious, that's an 
unfortunate. We hope to be able to improve that I think. And 
more so that, you know, students of color, the graduation rate 
for students of color compared to white students, I don't like 
using those terms but that's what they are called.
    For blacks, African, for black students it's even worse, 64 
percent versus 40 percent for example, and for Latinos, it's 64 
percent versus 54 percent. And also gaps in graduation rates 
are also large across family income.
    In his opening statement, the ranking member mentioned that 
maybe the idea that we should hold some of the schools 
accountable for student failures to graduate. You know, I'm 
going to come back to mister, eventually in a question for 
record with Mr. Ethelbah because I need to go back and check 
about the TRIO program in our community college.
    But is there a, something we could do to truly like I know 
schools, for profits schools are not exactly popular with some 
of the things that they do, but is there something you think in 
policy we could do to hold the schools accountable for when 
their students don't graduate?
    That maybe some programs that are intention--intended to 
help the students through their 4 or 6 years even progress are 
not effectively managed or not made available? Is there 
something you think in terms of policy that can be done to hold 
some of the schools accountable for not all, just some students 
just fail because they won't study, you know.
    My goodness, he is going to kill me. My son took 8 years to 
get his teachers degree also but is there something we could do 
you think, anybody in the panel? Any suggestion, idea? Hold the 
schools also accountable?
    Ms. EDDINGER. Look at the reluctance of my colleagues.
    Mr. SABLAN. I know.
    Ms. EDDINGER. I can do this one. I think in the past, 
particularly for short term educational programs, we have had 
or vocational programs, we have tried things like gainful 
employment reporting to make sure that you have a number of 
graduates over a number of--
    Mr. SABLAN. I like that.
    Ms. EDDINGER [continuing]. years.
    Mr. SABLAN. Kind of metric.
    Ms. EDDINGER. And those things are fine. I think colleges 
are on the whole happy to be held accountable. But what is on 
the other side of the balance is that if you don't resource the 
colleges the way that they need to be resource, so the job 
can't get done, then what exactly are we measuring? Do we also 
measure then on the other end on the balance of gainful 
employment adequate resources for doing the coaching, doing the 
advising during the academic remediation that we need to do.
    So I think it's a larger question than okay, you know, you 
are going to share this risk with us. You are going to share 
this accountability with us but not if in some ways my state 
funding has been going down for the last 10 years. So I think 
there is a real larger conversation than just a number to be 
accounted for.
    Mr. SABLAN. Okay. And now I'm going to go to another 
question if I may and each panel can answer yes or no. Do you 
support free tuition for students? Dr. Dynarski, I think you--
    Ms. DYNARSKI. So our past is that tuition was free at 
community colleges in particular. So historically, community 
colleges have been free or near free in most places.
    Mr. SABLAN. At 4 year college.
    Ms. DYNARSKI. Four year colleges?
    Mr. SABLAN. Yes.
    Ms. DYNARSKI. Also in some places have been free. There are 
many different ways to fund college. I do feel firmly that job 
training that programs that are intended to prepare people for 
careers are ones that people shouldn't be borrowing for.
    Mr. SABLAN. Okay.
    Ms. DYNARSKI. It's too risky, and we should not run our 
training programs through those.
    Mr. SABLAN. She is going to cut me off. Mr., Dr. Rudd, do 
you support free college tuition for students?
    Mr. RUDD. Well, I think it has been successful if you look 
in Tennessee, certainly the Tennessee Promise has been 
successful, increasing the number of students that--
    Mr. SABLAN. But not just in other country, in Norway for 
example.
    Mr. RUDD. I think there is good evidence that it can be 
effective.
    Mr. SABLAN. But--
    Mr. RUDD. If there are so many other costs.
    Mr. SABLAN. The school is going to be paid by somebody who 
will pay for it.
    Chairwoman DAVIS. Thank you, Dr. Rudd. I'm going to have to 
turn to our next questioner.
    Mr. SABLAN. Thank you.
    Chairwoman DAVIS. Dr. Grothman--Mr. Grothman.
    Mr. GROTHMAN. Thank you. First question for you. At least 
in my district, I find not just people who dropped out of 
college, but people who complete college frequently go back to 
a technical school, go back to trade school which would 
indicate we have too many people going to college.
    What percentage of say high school graduates do you think 
ought to go to college? Do you think that is too high today or 
what would you--what would your ideal percentage be? Anyone 
want to take a crack?
    Ms. DYNARSKI. We are at 30 percent of people are getting a 
BA. And for low income students it's more like 10 percent. So 
I--we tend to live in places where lots of educated people 
aggregate and so it seems like everybody has a college degree 
but 30 percent and 10 percent certainly do not sound to me like 
too much college education. We have fallen behind a dozen 
countries in the world in our degree attainment. We used to 
lead the world.
    Mr. GROTHMAN. Well, I'll ask the other people here. Does it 
concern you when people with college degrees are dissatisfied 
with their employment and go back to a tech school or go back 
to a trade school where they can get--be trained for a job--
first of all, have a greater likelihood of being employed and 
second, are able to make more money.
    Does that concern you and does it indicate that maybe we 
have too many people going to some colleges? None of you 
believe that, huh?
    Ms. EDDINGER. I think it's a really terrific thing for 
someone to have gotten a terrific education and being able to 
self-reflect and understand that they need additional education 
in something specific and career oriented.
    Mr. GROTHMAN. So that doesn't bother you if somebody 
graduates--
    Ms. EDDINGER. No, not at all.
    Mr. GROTHMAN [continuing]. from college. Is--
    Ms. EDDINGER. I really believe that at this day and age 
where the skills and the work place is outpacing our programs 
at the colleges that folks have to learn how to learn. And one 
piece of learning how to learn is to self-reflect.
    If someone believes that over the next 5 years they are 
better off as a plumber and they have a bachelor's degree, 
maybe at the end of that 5 years they would be opening a 
business that's a plumbing business and therefore they will 
have the skills to do it.
    Mr. GROTHMAN. Okay.
    Ms. EDDINGER. I think would do--
    Mr. GROTHMAN. Thank you. I--
    Ms. EDDINGER [continuing]. way too much of the--
    Mr. GROTHMAN. Yes. I would think that is part of our 
problem. Next question I have. I know many, not all 
institutions require SAT, ACT tests. Is there a correlation 
between how well you do on an SAT or ACT test and whether you 
get--whether you are able to go to graduate in 5 or 6 years? 
Does anybody have an answer to that question?
    Mr. RUDD. Our internal data actually suggest that your 
grade point average is a better indicator than the SAT or the 
ACT.
    Mr. GROTHMAN. Yes, but the question was--
    Mr. RUDD. Yes, that--
    Mr. GROTHMAN. We don't have a grade, you mean your grade 
point in high school? Your grade point--
    Mr. RUDD. Yes, your GPA in high school is a better 
indicator of whether or not you are going to finish in four, 5 
or 6 years.
    Mr. GROTHMAN. Okay. Is the SAT or ACT is that relevant? Is 
that a--is there a correlation there?
    Mr. RUDD. There is certainly, I mean, we--there are levels 
of scores on the ACT or the SAT but--
    Mr. GROTHMAN. Yes, I know, but is there a correlation or 
not?
    Mr. RUDD [continuing]. that indicate--
    Mr. GROTHMAN. I mean--
    Ms. DYNARSKI. There is a correlation between the SAT and 
success in college. I mean, something that the SAT and the ACT 
provide us is a consistent measure across high schools that may 
have very different GPA standards. They tend to serve as a 
check on what the GPA is.
    Mr. GROTHMAN. Okay. And do you think we could learn 
something from that as far as admitting people with lower ACTs, 
SATs?
    Mr. GROTHMAN. Maybe not. We can't learn anything from that. 
Okay. Next question we will go back to the dual enrollment. I 
know that is becoming more common. Is there, we will ask 
somebody on the--Dr. Eddinger or Mr. Ethelbah. Is there a 
correlation between taking more dual enrollment classes and 
finishing in 5 or 6 years, whatever the metric is.
    Ms. EDDINGER. There is. We have a high level of--a way 
higher level of college participation in the 80's but as 
students were either in dual enrollment or in early college. 
But the real advantage is that by the time they get out of 
early college and dual enrolment, they're at college level so 
they're not doing developmental work in college and therefore 
it speeds up the process.
    Mr. GROTHMAN. You just think more dual enrolment should be 
encouraged then?
    Ms. EDDINGER. Yes.
    Mr. ETHELBAH. It is something that is encouraged with our 
TRIO programs as well. The students that I have seen who have 
participated in dual enrolment through TRIO programs come into 
the institution at higher levels and therefore decrease their 
time to graduate.
    Mr. GROTHMAN. Okay. Thank you all. I will yield the 
reminder of my time.
    Chairwoman DAVIS. Thank you. Ms. Bonamici.
    Ms. BONAMICI. Thank you so much to the chair and ranking 
member and to all of our witnesses. First I want to say I am 
sorry Representative Stefanik left because she had asked you 
about reforming the Federal work study program and I invite her 
and anyone here to sign on to the Opportunities for Success 
Bill which is a piece of legislation I introduced to do just 
that, including modernizing the funding but also aligning work 
study jobs with students career interests and goals.
    So we know that as a Nation we need to do more to make sure 
that all students can access and complete a college education 
and we have had a lot of conversations here about TRIO and of 
course Gear Up and the programs that are especially helping to 
address barriers to completion and historically underserved 
students, first generation students. Thank you, Mr. Ethelbah, 
for your story and your work.
    I want to point out a successful program in northwest 
Oregon, Future Connects. It's a comprehensive support program 
that provides low income, first generation students at Portland 
Community College with a personalized--with personalized 
academic advising, a college success coach which is really the 
mentoring piece that's so important, access to internships and 
intensive summer orientation program and need based 
scholarships.
    And it has really been a successful model there because 
obviously, even though TRIO, Gear Up and TRIO are great 
programs, there is still a lot of unmet need so that's 
something that we can look at as we are seeking to address 
these barriers.
    And I want to followup on the question that Mr. Takano and 
Ms. Jayapal asked. I just read this report, Wisconsin Hope 
Center highlighting the issue of food and housing insecurity. 
Seven out of 10 students at 2 year colleges and 6 out of 10 
students at 4 year colleges experience some food or housing 
insecurity over the course of a single year. Those are pretty 
staggering numbers. They found that only 20 percent of food 
insecure students receive SNAP benefits and only 7 percent of 
students who experience homelessness received any housing 
assistance.
    And when we are talking about, you know, completion it is 
really challenging to try to complete if you are hungry and you 
don't have a safe place to live. I know this is an issue in 
Oregon. I just had a round table conversation about it and many 
of the institutions, Oregon State University, Portland 
Community College, Portland State University which is an urban 
institute have food pantries on campus.
    Mr. Ethelbah, you work directly I know with low income, 
first generation students every day. What role does housing and 
food insecurity, what role does that play in students' lives?
    Mr. ETHELBAH. Oh, it plays a huge role, I mean, you just 
have to look at Maslow's hierarchy of needs. If your basic 
needs aren't met, including home, shelter, food, you can't 
progress upward and thinks about anything else beyond how you 
are going to get your next meal or where you are going to live 
for the night. I can--
    Ms. BONAMICI. Can everybody just tell me and I am going to, 
I want you to finish but can everybody then just tell me 
because I want to get another question, what is your campus 
doing to address these issues? Mr. Ethelbah.
    Mr. ETHELBAH. And I was just going to mention that. At the 
University of Utah, we have created a homeless student task 
force. And it's a group of individuals from varying parts of 
the campus that work together to ensure that we are 
collectively moving forward with efforts to address some of 
these concerns.
    One of the things that has come up as a challenge within 
this group however is we are using Federal data to determine 
eligibility for certain types of assistance. For example, if we 
are going to put someone up in our local hotel for a night or 
two, we do have to report that as an additional form of 
financial assistance.
    So if you have a low income student that has already met 
the threshold for their cost of attendance, they basically are 
going to an over award situation.
    Ms. BONAMICI. Understand.
    Mr. ETHELBAH. Which is going got penalize them for getting 
an additional assistance for what they actually need versus 
really trying to help.
    Ms. BONAMICI. Thank you for pointing that out. Dr. 
Eddinger, what is your campus doing about food insecurity and 
homelessness?
    Ms. EDDINGER. We've established a single stop office which 
is an emergency office where all students can come so they know 
when to come. Food pantries, mobile food pantries, food cards, 
a whole range of emergency services. It's probably about I 
would say half a million dollars' worth of investment every 
year. And we are working on the possibility of pushing policy 
to align policy--
    Ms. BONAMICI. Thank you.
    Ms. EDDINGER [continuing]. of SNAP, Pell and all of the 
major pieces--
    Ms. BONAMICI. Excellent.
    Ms. EDDINGER [continuing]. that really need to fit 
together.
    Ms. BONAMICI. Dr. Rudd, I'm going to run out of time, Dr. 
Rudd.
    Mr. RUDD. Yes, we have a food pantry as well. We also we 
have raised some private support for to support homeless 
students. We have a limited number of homeless individuals.
    And then we have worked with our new dining provider to 
have them carve off a program and create a program to address 
food insecurity as a part of the dining contract that we have.
    Ms. BONAMICI. Dr. Dynarski.
    Ms. DYNARSKI. I just wanted to say that we generally have a 
shredded safety net and that applies to students as well. And 
what we are left with is colleges having to play the role that 
social policy programs should play.
    Ms. BONAMICI. Thank you. And I am out of time. I am going 
to submit for the record, I really want to followup on the gaps 
in degree attainment by race and income and really looking at 
targeting interventions that students are at least likely to 
compete, complete. So I will submit that for the record. I 
yield back.
    Chairwoman DAVIS. Thank you.
    Ms. BONAMICI. Thank you.
    Chairwoman DAVIS. Thank you. Mr. Meuser.
    Mr. MEUSER. Thank you, Madame Chair. As we heard this 
morning, 4 year completion rates are really no longer the norm. 
So I wanted to ask a couple of questions related to student 
advisors and the routine that they meet with students. Is it 
twice a semester? Is it once a quarter?
    And do the conversations include all of the criteria we are 
speaking about that students major, are they on track for it? 
The amount of loan that they have out, the amount of debt or 
cost that they're building? Whether they are going to complete 
their major and be able to graduate on time?
    Are these conversations recorded? Are they agreed to? So is 
there some sort of record of it? And do you consider allowing 
some sort of waiver so as parents or the payer, the one 
investing in the student is also made aware of these 
conversations and this guidance provided? Dr. Eddinger?
    Ms. EDDINGER. I wish it were that straightforward. With an 
average age of 26 on campus, every single student I have has a 
different situation and many of them are adults. They have no 
parents or their parents are not in their lives. The 
conversations would start with the transition when they first 
come in. They would get financial aid advising, they would get 
academic advising. We would send out tweets, we would send out 
texts to these students to alert them of deadlines and so on 
and so forth and they have peer mentors in their learning 
communities.
    There is a whole web of advising that goes on. It is not as 
straight forward as taking a high school senior and taking them 
through into the first year of residential. It is complex.
    Mr. MEUSER. Well, I think there are a lot of examples where 
it could be a lot better so this is something that we could 
talk about in the future. I yield back the rest of my time to 
Dr. Foxx.
    Chairwoman DAVIS. The gentleman yields to Dr. Foxx.
    Mrs. FOXX. Thank you very much, Mr. Meuser, and thank you, 
Madame Chairman. I want to followup a little bit on some 
comments that were made in your opening statements and I would 
like to go to Dr. Eddinger.
    You say in your opening statement that we are the source 
for the future workshop and what we call new collar jobs, jobs 
that are middle skills that pay well. Tell me what you think 
middle skills are and what do baccalaureate institutions--what 
would you call higher skills that a student would get in a 
baccalaureate institution that they wouldn't need for a new 
job?
    Ms. EDDINGER. Here is an example. In the field of 
information technology or IT, there is a series of entry level 
programming jobs that someone with a year or 2 years' worth of 
training in education--
    Mrs. FOXX. How about education.
    Ms. EDDINGER. Yes.
    Mrs. FOXX. Not training.
    Ms. EDDINGER. Yes. Well, skills training and then education 
in the liberal arts and critical skills and so on, that 
combination.
    Once they are able to get that particular credential, they 
can enter that work force. Now if they want to advance to be a 
systems administrator and so on, they will need a bachelor's 
degree. But it is the beginning and it pays well. And those 
jobs didn't exist let's say 5, 10 years ago.
    Mrs. FOXX. Okay. Well, some time I would like to pursue 
with you, maybe privately, what you think that they are getting 
in the baccalaureate degree that provides them what they need 
other than the degree itself. Because I am questioning whether 
or not--what middle skills are because I think what you need 
for coding and those IT jobs are the skills you are going to 
need for everything else that you're getting.
    I also want to ask each of you to answer a question for me 
and I will come back to in my comments later. Dr. Dynarksi, you 
said that for profit schools should innovate, they should be 
held accountable, and there should be oversight and a robust 
manner. Do you not believe all post-secondary institutions 
should be doing that?
    Just answer me yes or no, each one of you. Start with Dr. 
Dynarksi. Should they innovate? Should they be held accountable 
and should they have oversight?
    Ms. DYNARSKI. Yes.
    Mr. RUDD. Yes.
    Ms. EDDINGER. Absolutely.
    Mr. ETHELBAH. Yes.
    Mrs. FOXX. I don't understand then why for profits are 
being singled about in this area. I yield back, Madame 
Chairman.
    Chairwoman DAVIS. Thank you. Ms. Adams.
    Ms. ADAMS. Thank you very much, Chairwoman Davis and 
Ranking Member Smucker. Thank you to the individuals who are 
here to testify today.
    It is clear from the testimony that many of the biggest 
challenges faced by today's college students are related to 
poverty, housing, food insecurity, long hours and sudden 
financial emergencies. But I wonder if institutions sometimes 
establish policies and practices that can create unintended 
barriers that make it really confusing for students, 
particularly first generation students.
    Mr. Ethelbah, can you tell us a little bit about the 
logistical and bureaucratic barriers that are faced by low 
income, first generation students?
    Mr. ETHELBAH. Definitely. An example that I tend to see 
quite a bit, especially as we enter into the summer area is the 
hold your spot fee that's required by institutions. The 
individual has to pay a fee in order to indicate they're going 
to be enrolling in the fall.
    What I started to see with a lot of our students is an 
increased number of our applications for our financial aid have 
been stopped for verification. And so often times the 
verification takes about six to 8 weeks.
    By the time they're flagged to have to pay this enrollment 
deposit, and then the time it takes to actually verify to 
that--so that they can get that waiver, get that fee waived, 
the time that takes in between that they're losing valuable 
time in order to meet with an advisor, to get their classes 
structured, to really be able to become a student before the 
actual semester starts. And it's a big barrier in terms of 
getting our low income students into the door.
    Ms. ADAMS. Thank you I spent 40 years on the campus of 
Bennett College in Greensboro and know very well the many 
obstacles that students face. So, Dr. Rudd, Dr. Eddinger, what 
steps have you taken at your campuses to make higher education 
easier to navigate?
    Mr. RUDD. Well, I think we have for students who have 
certainly first generation students and students who haven't 
been on a college campus we have created a broad array of 
support programs that help educate them about the navigation of 
the campus and about what it--how you get around the campus and 
how you deal with the realities of campus from the bursar to 
all the way to my office.
    And I think for students outside of the first generation we 
have simplified or we have tried to simplify their process as 
much as we can and make things accessible to students. And that 
means, if that means digital access we try to do that as well.
    So I think simplifying it, making it accessible is critical 
but for first generation students they're going to require some 
direct face to face mentorship as a part of that and we have 
created a broad array of programs around that.
    Ms. ADAMS. Dr. Eddinger.
    Ms. EDDINGER. I think the first is a sense of place, 
knowing where to go and not having to sort of wander around the 
campus looking for emergency services or financial services. So 
single stop and student central are the two spots that we found 
for students to gather. The other is a sense of process. We 
used to have something called the Bunker Hill bounce where we 
bounced students all over the place for just one question. We 
don't do that anymore.
    Ms. ADAMS. Okay.
    Ms. EDDINGER. And the third is really for our faculty and 
staff and the administration to understand that we are dealing 
with an adult, whole student. Not some concept of an 18 year 
old, but the whole range of needs of a student who is, who we 
haven't seen before. We have got to be ready for them rather 
than saying you have to be ready for us.
    Ms. ADAMS. Okay.
    Ms. EDDINGER. And I think that mindset--
    Ms. ADAMS. Great, thank you. So let me, Dr. Rudd, can you 
talk about how you have seen micro grants or emergency grants 
and what they--if you have been doing that, to help students 
get across that finish line if and if the strategy makes sense?
    Mr. RUDD. Well, we created an emergency grant program and 
part of the reason we did that is we saw a significant number 
of students who would stop out based on very small amounts of 
money, $200 to $300 from spring to summer or fall to spring. So 
we did create a micro grant program that has been heavily 
utilized and it naturally as you might imagine, has had 
disproportionate impact on the retention rates and completion 
rates of the most vulnerable students that we have.
    Ms. ADAMS. Great, thank you very much. Dr. Eddinger, did 
you want to?
    Ms. EDDINGER. Yes. The same.
    Ms. ADAMS. Okay.
    Ms. EDDINGER. Absolutely the same.
    Ms. ADAMS. Very good. Thank you. Thank you all very much. 
Madame Chair, I yield back.
    Chairwoman DAVIS. Thank you. Mr. Watkins.
    Mr. WATKINS. Thank you, Madame Chair. I had the privilege 
to meet several TRIO students from my home state of Kansas 
recently and they are all first time college students and it 
was real inspiring.
    These includes University of Kansas, Kansas State 
University, Haskell Indian Nations University and several 
others. And they were really blew me away as to how much they 
are and they value their education.
    Since the inception of the Higher Education Act of 1965, 
Congress has focused on increasing the success of disadvantaged 
students, thank goodness. This hearing today is certainly 
timely as we consider reauthorizing the HEA.
    We look to reviewing strategies that work so, Mr. Ethelbah, 
as the director of University of Utah's TRIO program, how 
frequently do you review the best practices or the standards? 
What kind of standard metrics do you use to gauge progress?
    Mr. ETHELBAH. We have been on an effort to really join with 
our Office of Institutional Analysis at the University of Utah 
to really track our efforts as they relate to other students 
who are not participating in our program. So the same types of 
services, advising, financial aid, as well as completion rates.
    We have really started to look at that data a lot more 
closely to understand what it is that we are doing right that 
we can replicate and what we can improve upon. And so a couple 
of things that have come with that is the need to really 
reassess how we are providing our tutoring program for example.
    We were providing the traditional types of tutoring 
components that we have always done but our students are 
working more, they're not on campus as much so we have had to 
be innovative. This past year we have introduced an online 
tutoring platform. We have assessed that to see how it has 
impacted the grades that the students are getting in the 
courses that they were taking the tutoring for and it has had a 
very positive impact. And the students themselves have said 
that the introduction of this has allowed them to just do 
tutoring as soon as they get home from work at 10:30 at night 
so that they don't have to come back to campus to be able to be 
successful. So this is a small example of some of the things 
that we are really trying to do to improve our services.
    Mr. WATKINS. Great, thank you Mr. Ethelbah. Thank you to 
the panel and I yield my time, Madame Chairwoman.
    Chairwoman DAVIS. Thank you. Mr. Trone.
    Mr. TRONE. Thank you, Madame Chairwoman Davis, and Ranking 
Member Smucker and the witness for being here today. Dr. 
Dynarski, at the end of the questioning, Ranking Member Foxx 
posed a question rhetorically as to why members on our side of 
the aisle continue to single out for profit schools as a sector 
in higher ed in need of increased accountability and oversight. 
Could you shed some light on why that sector has received 
increased focus of concern?
    Ms. DYNARSKI. Yes. So the for profit sector has the lowest 
graduation rates as we indicated. More concerningly, however, 
students who go to these colleges get no financial benefit from 
it at all.
    So Stephanie Cellini and Nicholas Turner showed using the 
universe of data on earnings for for-profit students that they 
made no more coming out of college than they made coming in. 
This is in distinct contrast to the evidence from 4 year 
colleges and from community colleges where we consistently find 
that there is financial benefit, that there are earnings 
returns to taking even just a few credits of college.
    So it's a sector in which people are not getting any 
returns for their educations and they are getting much higher 
debt loads than they are at the public institutions.
    And what the result has been is that for students coming 
out of these schools with low earnings and high debt, we see 
enormous defaults and financial distress. As a sector, it is 
performing far worse than the other sectors.
    Mr. TRONE. Well, as one of the many capitalists in the 
Democratic Party, that seems like a failure for the customers. 
Not good.
    Ms. DYNARSKI. Right.
    Mr. TRONE. Something I am also passionate about and I know 
many of my colleagues on the other side of the aisle are is 
criminal justice reform. Ms. Chairwoman, I would like to enter 
into the record the report from the Vera Institute of Justice, 
investing in futures economic and fiscal benefits of post-
secondary education in prison.
    Chairwoman DAVIS. So ordered.
    Mr. TRONE. Thank you. 64 percent of incarcerated people are 
academically eligible to enroll in college prison programs but 
the data shows only 9 percent ever complete any kind of a 
program. Incarcerated individuals have been excluded from Pell 
since 1994.
    Dr. Dynarksi, what are your thoughts on lifting the Pell 
ban completely for incarcerated students and what impact would 
that have on individuals in society by spending the money up 
front, helping them with Pell, giving them two, three, 4 years 
to train, to succeed.
    Because when they leave prison, we are getting a 75 percent 
recidivism rate so we are just pouring the money in a circular 
fashion back in the prisons and we are not helping people get a 
second chance that they can actually succeed with. So what do 
we need to do here?
    Ms. DYNARSKI. If we would like prisoners to reenter society 
as protected--productive members of the work force, they need a 
good education to do so. And it seems like prison is a good 
opportunity in which to increase education. That's where a lot 
of people get their GED's and being able to follow on for 
college education would certainly be helpful for their lives 
after they exit prison.
    Mr. TRONE. How do we ensure these programs are high quality 
and best support them? Because they may not want to study 
British literature but I'm guessing they would love to learn 
how to be a mechanic, drywall, plumber. Great jobs that we need 
folks in the workface now. How do we make that happen? What are 
the steps?
    Ms. DYNARSKI. In the past, prisons have partnered with 
local community colleges and universities. So rather than start 
their own programs they essentially would work with the local 
institutions which were of good quality and tap on their 
resources.
    Mr. TRONE. Exactly. We are doing some of that in our 
district. Which state have you seen does the best job of 
connecting community college with real programs that create 
jobs for folks so they can succeed and have a real second 
chance?
    Ms. DYNARSKI. We actually see across the country that 
community college students succeed. They come out with skills 
that are valuable to the work force. And I'm not going to pick 
on any one particular state as being a failure or a success, 
the community college sector has done quite well.
    Mr. TRONE. And thank you. I yield back my time.
    Chairwoman DAVIS. Thank you. Dr. Foxx?
    Mrs. FOXX. I will yield first to Mrs. Lee.
    Chairwoman DAVIS. Mrs. Lee.
    Ms. LEE. Thank you, Madame Chairwoman. Thank you all for 
being here. I just, I want to talk about resources and do some 
comparisons. I would like to compare some statistics between 
community colleges and for profit schools in my district in Las 
Vegas, Nevada and Henderson.
    At the College of Southern Nevada, tuition is about $3,000 
per year and the institution spends approximately $2.30 on 
instruction for each dollar it collects in tuition.
    At a sample for profit school in my district, the average 
annual tuition is $9,000 and anywhere between 20 and 50 cents 
per dollar collected is spent on tuition.
    The schools that attempt to do the most for our students, 
especially students historically underserved by 4 year colleges 
and at the lowest cost to tax payers are often our community 
college. Yet we know that community college gets the least 
amount of Federal support or support from Federal aid programs.
    I would like to also look at the prevalence of default 
among those attending for profit rather than community 
colleges. According to Brookings, 73 percent of students who 
attend for profits had to borrow to attend and they had an 
average of about $5400 in Federal loans.
    Compare that to 19 percent of students who attend community 
colleges averaging approximately $900 in federally--in Federal 
loans.
    And then according to the Department of Education, students 
who attend for profits are more likely to default on their 
loans at 16 percent than those attending community colleges in 
public 4 year institutions at 10 percent or private nonprofits 
at 7.
    It's clear we have a system in which Federal dollars are 
not being channeled to institutions like community colleges 
that colleges that are well situated to help those students 
that are buying for greater academic and social mobility.
    And given the outcomes that we have seen with for profit 
institutions in terms of costs, completion, student debt levels 
and closures, I wonder how Federal dollars that are currently 
being flowing to these schools, whether indirectly could be 
spent on our under resourced schools like community colleges so 
that they have the funding to support the success of our most 
at risk students.
    Dr. Dynarski, do you think that students who attend for 
profit schools would be better served if they had the option of 
attending affordable but well-funded public institutions such 
as community colleges and what do you believe is the best use 
of Federal dollars?
    Ms. DYNARSKI. The evidence we have from California in 
particular is that when community colleges are not well funded 
that's when students turn to the for profit colleges so there 
is a direct link here.
    The same types of students attend for profits and it's the 
same set of students moving back and forth. And it's a set of 
students for whom college is a risky bet. All right. So we know 
that on average, college pays off but for disadvantaged 
students, students that come in with weak preparation, it's 
particularly risky.
    In the for profit colleges, the risk lies squarely on the 
student because they take out loans and they pay tuition to 
cover the cost of their education and if the education doesn't 
work out, they're the ones stuck with all of the downside. 
Community colleges the schools, the public essentially are 
taking on the risk of that bet for those, for those students 
and it is a safer place for them to be.
    The amount of money that is spent on instruction per dollar 
of revenue is also as you pointed out much higher at the 
community colleges and the for profits, a lot of that money is 
going into advertising and into profits.
    Ms. LEE. Great, thank you. I am going to turn a little 
bit--I am going to turn toward accountability. During our last 
hearing we addressed these issues and we heard that States, 
most States subject for profit institutions to lower levels of 
oversight than public institutions.
    And I think this is especially important when we look at 
outcomes specifically. You mentioned that 35 percent of those 
who enter for profit 4 year colleges will earn a degree in 6 
years compared to 65 percent at 4 year--public 4 year colleges 
and 76 percent respectively at nonprofit 4 year colleges.
    Giving this information--given that information in your 
research, what do you think is the right approach on for profit 
institutions and does this include better accreditation 
standards?
    Ms. DYNARSKI. So accreditation is common across all of 
these institutions. The public institutions have the added 
oversight of the governments that are running them, right. The 
for profits don't have that. And I think that is the reason 
that this sector in particular needs greater oversight.
    Ms. LEE. Thank you very much.
    Chairwoman DAVIS. Thank you.
    Ms. LEE. I yield.
    Chairwoman DAVIS. Thank you. Dr. Foxx.
    Mrs. FOXX. Madame Chair, I yield for Ms. Wild.
    Chairwoman DAVIS. Okay. No. According to the rule in 
questioning of witnesses, my colleague, chairs will take into 
consideration the ratio of the majority to minority party 
members present and shall establish the order of recognition. 
So I think according to the rules, it is--the difficulty is 
that she is not on the subcommittee so we need to have you go 
forward.
    Mrs. FOXX. Thank you
    Chairwoman DAVIS. Thank you.
    Mrs. FOXX. I appreciated the questioning about using Pell 
Grants for prisoners and at some point, Dr. Dynarski, I would 
like us to followup on this.
    North Carolina already does programs in prisons for 
students. Again when I was at the community college we had 
programs at the prisons and I have recently talked to North 
Carolina people who run these programs and they are meeting the 
total need right now with state money. So I do not understand 
why we want to burden people all over this country to pay for 
programs for prisons by giving them Pell Grants when the States 
themselves can take care of this.
    And as you mentioned, there are good programs all over the 
country and, Madame Chairman, at some point between now and the 
time that our deadline, I would like to get some information 
into the record on what is happening with Pell, with programs 
in the various States for prisoners. So I am not really sure 
where this push for Pell is coming from.
    I would like to go back to something Dr. Rudd said about 
flexibility for work study. I would like you to expand just a 
little bit on this.
    I will tell you under current conditions, you are exactly 
right. Only 25 percent of work study can be used off campus. 75 
percent must be used on campus. I think this is a ridiculous 
rule.
    Under the PROSPER Act that we had last year and passed out 
of committee, we allowed up--we allowed all of the money to be 
used off campus because we believe that there should be more 
financial aid available for students to go into 
apprenticeships, internships, that lead to real jobs, not 
working in the college library.
    So you want to make another--how much of that work study 
money could you use for work for students to get real jobs?
    Mr. RUDD. My guess is we could use the vast majority of it, 
if not all do it to help them do that. I mean, we certainly 
have significant demand in Memphis and we have got good 
partners that I think would be more than eager to do that and 
create nice pathways for those students.
    Mrs. FOXX. Right. Madame Chairman, I would like to put in 
the record statistics from the College Board related to the 
comparison of HBCU's, for profit schools, and public associate 
degree granting colleges.
    The number of HBCU's in our country are 98. The number with 
a graduation rate over 58 percent, 4. The number of HBCU's 
whose graduates have higher than average starting salary, 2. 
The number of for profit schools, 817. The graduation rate over 
58 percent. The national average is 260.
    And by the way that includes Platt College in 
Representative Davis's district. Brightwood College in 
Representative Takano's district. Herzing University in 
Representative Omar's district.
    About 32 percent of for profit schools on college 
scoreboard outperform the national graduate rate average. 
Number of for profits whose graduates have a higher than 
average starting salary, 29. Which is a higher percentage than 
both 2 year and HBCU's.
    The number of 2 year community colleges 1,268, graduation 
rate over 58 percent, the national average 52. Four percent--
    Chairwoman DAVIS. Would the gentlelady yield for question?
    Mrs. FOXX. As soon as I complete.
    Chairwoman DAVIS. Okay.
    Mrs. FOXX. About 4 percent of public associate degree 
granting institutions on college scoreboard performed above the 
national average. The number of community colleges whose 
graduates have a higher than average starting salary, 55. 
That's 55 out of 1,268. And I--
    Chairwoman DAVIS. Thank you.
    Mrs. FOXX. There is nobody who is a more, who is a greater 
advocate of community colleges than I am. And I believe the 
community colleges can do better but we need to be treating all 
sectors equally. All of them.
    We should have accountability for all sectors of education 
because the tax payers are paying one way or another for what 
passes as education in these institutions. Yes, ma'am, I will 
yield.
    Chairwoman DAVIS. Thank you. Yes, Dr. Foxx, I am just 
wondering if you are aware Brightwood College, I think there 
may have been others in there that actually have closed. And I 
think the difficulty that we all have is that there is really 
no option for the students when for any number of reasons the 
colleges close. And they usually close on a dime with no notice 
to students, and no ability for them to recoup their losses.
    So I think that is part of what we are dealing with. I 
think the other issue of course has to do with our veterans. 
And there are programs that our veterans attend that work out 
well for them. But there are others that really create 
tremendous difficulty because they, it is not unlike what I 
think our witnesses have Stated that in fact people have no 
higher earnings than they did when they started.
    And in terms of our military, they have no more skills than 
they started and that is not a situation that I think we are 
interested in.
    But it is an ongoing conversation and we certainly hope to 
engage in that and I think you have all presented some good 
information.
    I want to turn now to Ms. Wild who is on the education 
committee of course but not on the subcommittee. So she goes 
last.
    Ms. WILD. Thank you very much, Madame Chairwoman. I am very 
happy that we are having this hearing today and I came over 
even though I'm not on the subcommittee because of my extreme 
interest in this subject.
    I would like to before I turn to my questions, respond to 
the comment made earlier that we must treat all institutions 
the same regardless of tax status. Ranking Member Foxx has 
repeatedly suggested that it is somehow unfair or unwise to 
apply accountability standards solely to for profit 
institutions.
    But this argument completely ignores the reality that the 
sectors already operate under very different oversight and 
accountability structures. States have direct governance 
authority over public institutions and private, nonprofit 
institutions are operated by trustees who are legally committed 
to the public interest.
    Only in the for profit sector can college leaders benefit 
personally from the operations of their institutions. And I 
think that is a very important distinction to make.
    Due in part to these differences in structure and 
incentives, for profit colleges have consistently worse 
outcomes. For example, only about a quarter, 25 percent of 
students enrolled at for profits colleges complete a bachelor's 
degree within 6 years compared to 59 percent at public 
institutions and 66 percent at nonprofits.
    Among students enrolled in 2 year programs, those attending 
for profits are nearly four times as likely to default on their 
loans compared to their counter parts at community colleges. 
And it, so it is clear to me that we have to increase oversight 
of the for profit sector and design accountability systems that 
reflect the inherent differences of the sector and I would urge 
my colleagues to work with me in this effort to protect 
students and tax payers.
    This has happened in fact in my own district at what was 
known as Lehigh Valley College and the, all of the problems I 
have just described applied to that school before it closed and 
in fact, it ended up being investigated by our state attorney 
general.
    Moving on, while the cost of education of college has 
sharply increased in recent decades, so have the financial 
benefits of a college degree. And in this space, I think it's 
so important for us to be talking about the fact that the cost 
of non-completion while still incurring student loan debt is 
devastating.
    You know, I have excellent 6 year--six excellent 4 year 
college and universities in my district, really, really highly 
regarded, nationally known schools. But since coming to 
Congress, I have come to learn of more about the and 
specifically because of my work on this committee, I have 
become very intimately acquainted with the two community 
colleges in my district, Lehigh Carbon Community College in 
west of Allentown Pennsylvania and Northampton Community 
College on the eastern side of my district.
    And they are--they offer--together they offer the students 
of my district a range of really high quality academic and 
career training programs ranging from things like history and 
liberal arts and engineering to nursing and hotel management to 
aviation and CDL licensing. And 93 to 94 percent of the 
graduates from those two community colleges are either 
continuing their education or in a career.
    So I have just become a huge fan of the community college 
space but at the same time it seems to me that students at 
these 2 year colleges are also more likely, more likely to need 
additional resources because of the challenges that they face 
in addition to preparing for colleges and paying for tuition.
    They face gaps in their financial aid as I have learned, 
they struggle to pay for extra needs that come up. They often 
struggle to pay for three meals a day. I learned that every 
college in my district maintains a food bank and that they are 
particularly highly utilized at the two community colleges. 
They have trouble with transportation costs and the huge 
expense of childcare. Both of the community colleges have very 
wonderful onsite childcare centers.
    So with all of that as a preface, I would like to turn to 
you, Mr. Ethelbah, because I found your written testimony to be 
especially compelling. And I would like to know from you or any 
of the other witnesses what can we as the Federal Government do 
to support these institutions in their efforts to help keep 
students on a path to graduation. and, I'm sorry, I've almost 
used up all my time but if you could.
    Mr. ETHELBAH. You know, yes, obviously finance is going to 
be the No. 1 thing that is referenced and it is often what we 
hear the most of. As I mentioned earlier, one of the things 
that we have seen in terms of the impact is students will 
attend in our institution to stay enrolled for the first 2 
years and then drop off because of family obligations.
    So looking at opportunities in the third and fourth years 
to really supplement the financial aid that they can receive in 
that and then also really incorporating much more broader items 
that you can include within the financial aid to include 
housing assistance as well as food benefits, etcetera.
    Chairwoman DAVIS. Thank you. Thank you very much. We have 
come to the conclusion of the questions but we have a few more 
things to do here.
    So I wanted to remind my colleagues that pursuant to 
committee practice, materials for submission for the hearing 
record must be submitted to the committee clerk within 14 days 
following the last day of the hearing preferably in Microsoft 
Word format.
    The materials submitted must address the subject matter of 
the hearing and only a member of the committee or an invited 
witness may submit materials for inclusion in the hearing 
record.
    Documents are limited to 15 pages each. 50 pages each. 
Document longer than 50 pages will be incorporated into the 
record via an internet link that you must provide to the 
committee clerk within the required, excuse me, timeframe but 
please recognize that years from now that link may no longer 
work.
    I want to thank you all for being here, participating and 
certainly giving us a lot of good information and areas that we 
can explore further. What we have heard is certainly very 
valuable.
    Members of the committee may have some additional questions 
for you and we ask the witnesses to please respond to those 
questions in writing. The hearing record will be held open for 
14 days in order to receive those responses.
    And I want to remind my colleagues that pursuant to 
committee practice, witness questions for the hearing record 
must be submitted to the majority committee staff or committee 
clerk within 7 days and the questions submitted must address 
the subject matter of the hearing.
    And it is now my pleasure to recognize the distinguished 
ranking member for his closing statement.
    Mr. SMUCKER. Thank you, Madame Chair. And I would like to 
thank the witnesses for being here as well and would now like 
to yield my time for a closing statement to the ranking member 
of the full committee, Dr. Foxx.
    Mrs. FOXX. Thank you, Mr. Smucker. One of the things I am 
proud of is that we as a committee have really begun to talk 
about skills education in conjunction with what has 
traditionally been called higher education or as I prefer to 
call it, post-secondary education. Because I think a lot of us 
agree that the higher order skills aren't being taught anymore.
    When we talk about skills education, as an integral part of 
post-secondary education we are getting closer to taking a 
holistic view of education. It is not just baccalaureate 
programs, it is just not about the liberal arts, it is about 
having the skills to do the jobs this country needs done and 
the jobs people want to do to build a good life for themselves.
    And I think we need to be a little more mindful when we 
talk about skills that we don't ignore the value of life 
skills. Let's talk about the traditional student for just a 
moment. There are increasing numbers of students who are older 
who have achieved some level of independence in their lives 
already before they ever consider post-secondary programs. But 
for just a moment, let's consider the 18 year old freshman.
    I have counseled many in my day as an instructor and 
advisor and administrator. For many college freshman, going to 
the post-secondary program they have chosen is their first 
taste of independence. I think we need to be extremely careful 
about limiting their exposure to the tough decision an 
independent citizen has to make.
    Everyone here has heard me say this before but it is worth 
repeating because it directly relates to what we are talking 
about today. It took me 7 years to finish my baccalaureate 
program. That is because I was in the exact same position a lot 
of students are in today and some you described, especially 
older students, even though I started at 18.
    It took that long because the cost of college was very high 
even then. You may look at me and assume that I went to school 
so long ago that things are so different now. It is much more 
expensive now that I wouldn't understand. But I came from 
poverty most people in this room wouldn't understand. I didn't 
see running water inside a house until I was 14. So yes, 
college costs haven't changed--have changed but the trappings 
of deep poverty haven't.
    In order to eat, in order to support myself alongside my 
husband, provide for our young family, I had to find a way to 
work while we were both in school. It was hard. But that is 
where we learned how to be adults. That is how we learned to 
make wise financial decisions. It is where we learned to 
differentiate between things we wanted and things we needed. 
Those are life skills. Those are what separate independent 
adults from people who want decisions made for them from people 
who look to others for the answers.
    I empathize with working students probably more than anyone 
here. I didn't just walk in their shoes, for most of my career 
I used my experience to give back to them, to offer whatever 
support and advice and mentorship I could. I think we need to 
be extremely careful in talking about working students or 
students who don't come to the table with means as welfare 
candidates.
    A few members have gotten close to that today. We don't 
need a--to view a period of government dependency as a rite of 
passage for Americans. We need to ensure certain services are 
reserved for those who have demonstrated they need them and 
keep post-secondary education a true learning experience for 
higher order skills, for jobs skills, and for life skills.
    We don't need to let institutions off the hook either. I 
have long said institutions need to be more responsive to the 
needs of the students they sign on to serve. What I have heard 
today from the witnesses is that there is a willingness, I 
believe an increasing willingness, on the part of institutions 
to better serve the life needs of the students, the needs that 
just--that aren't just academic.
    Good. Good that you are stepping up. Let's see more 
institutions step up. Let's not give the government an excuse 
to put its hooks deeper into college campuses and student life 
by providing the services you should have been providing all 
along.
    When a student is admitted to an institution, it has to be 
a two way agreement. The student commits to meeting academic 
standards and a steep financial commitment and the institution 
has a responsibility to help them. It is that simple.
    Thank you for coming again. Thank you all and thank you, 
Madame Chair, I yield back.
    Chairwoman DAVIS. I thank you very much and again thank you 
to the witnesses. I will now recognize myself for the purpose 
of making a closing statement.
    Now I want to acknowledge the ranking chair and my good 
friend, Virginia Foxx, because I think we have worked hard on 
this committee to broaden what the public, what our students, 
what we see as higher education. And the fact that when people 
move on whether it is through apprenticeship programs or 
through college programs, through university programs, they are 
all participating in that and the payoff for our country is 
great.
    And that is what I think we have been trying focus on. That 
it is important that we make sure that people complete because 
when they do that, we all win. And when that doesn't happen we 
know that the consequences can be great, not just for the 
individual but for the generations of that individual's family 
and our community as a whole.
    The reality is, that it is difficult for young people to 
complete college. All students, you know, work hard at that. 
And depending upon whether they are non-traditional students or 
not.
    But we gain so much more when we are able to help support 
those students, psychosocial, wraparound services if you will. 
Because when they complete the payoff as I have said earlier is 
so much greater. It is great that everybody, you know, if we 
had everybody completing but I think that is what really is at 
the heart of this discussion.
    So it is not so much about government services as much as 
providing the structure and providing the mentors. When you 
have people that are in your court and they are going to make 
sure you are succeeding, it makes a big difference than if you 
are alone.
    Too many of our students are alone at a very, very 
difficult time. And that is what I think we work to do and that 
is why Pell Grants are important. Without those Pell Grants, 
students could not be successful.
    But on the other hand, those other services have to be 
there for those students who need them. Fortunately they all 
don't. But I can assure you just like Mr. Ethelbah here, that 
you have been able to give back as a result of the support that 
you received. And there is no way of calculating that benefit 
to our community.
    So I am going to thank all of you for being here today. We 
have to make certain that college is affordable, access is 
there but then making sure that people are able to complete. We 
have to work together to ensure that our higher isn't--
education system supports students through graduation so they 
can enjoy the life changing benefits of a college degree. And 
that goes as well for other programs that they access in the 
course of their entire life and how they are learning.
    I want to ask unanimous consent to enter into the record 
the following letters on ways to improve college completion. A 
letter from Suzanne Ortega, President of the Counsel of 
Graduate Schools and a letter from Chancellor Lori Ortiz 
Oakley, Chancellor of the California Community College.
    If there is no further business, the committee stands 
adjourned. Thank you again.
    [Additional submissions by Chairwoman Davis follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional submission by Mrs. Foxx follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]	    
    
    [Additional submission by Ms. Jayapal follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    [Additional submissions by Mr. Trone follow:]
    Investing in Futures: Economic and Fiscal Benefits of 
Postsecondary Education in Prison: https://www.govinfo.gov/
content/pkg/CPRT-116HPRT38283/pdf/CPRT-116HPRT38283.pdf
    [Questions submitted for the record and their responses 
follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
